 A REVIEW OF THE SELECTION

PROCESS FOR THE COPS HIRING 

    RECOVERY PROGRAM


      U.S. Department of Justice

    Office of the Inspector General 

             Audit Division


          Audit Report 10-25 

              May 2010

   A REVIEW OF THE SELECTION PROCESS FOR THE COPS 

             HIRING RECOVERY PROGRAM


                           EXECUTIVE SUMMARY


      The American Recovery and Reinvestment Act of 2009 (Recovery Act),
enacted on February 17, 2009, provides approximately $4 billion to the
Department of Justice (Department) in grant funding to be used to enhance
state, local, and tribal law enforcement efforts. Of these funds, $1 billion
was provided to the Office of Community Oriented Policing Services (COPS)
to award as grants to state, local, and tribal governments to hire or retain
police officers.

      To distribute the Recovery Act money, COPS established the COPS
Hiring Recovery Program (CHRP), a grant program for the hiring, rehiring,
and retention of career law enforcement officers. COPS created CHRP to
provide 100 percent of the funding for approved entry-level salaries and
benefits (for 3 years) for newly-hired, full-time sworn officer positions, for
rehired officers who had been laid off, or for officers who were scheduled to
be laid off on a future date. COPS received 7,272 applications requesting
funding for approximately 39,000 officer positions. On July 28, 2009, COPS
announced its selection of 1,046 law enforcement agencies as recipients of
the $1 billion CHRP funding to hire, rehire, and retain 4,699 officers.

OIG Audit Approach

      The Department of Justice Office of the Inspector General (OIG) is
performing reviews of the Department’s overall implementation of the
Recovery Act. This audit examines COPS’ implementation of CHRP. Other
audits are reviewing programs funded by the Recovery Act for grants from
the Office of Justice Programs (OJP) and the Office on Violence Against
Women. The OIG also is reviewing the Bureau of Alcohol, Tobacco,
Firearms, and Explosives’ use of Recovery Act funds.1

     The objectives of this audit were to evaluate COPS’ design and
implementation of the CHRP grant program, including whether legal and
administrative requirements established by the Recovery Act, as well as
guidance issued on the Recovery Act’s implementation, were satisfied. The

      1
        The OIG Recovery Act reports can be found on the Internet at
www.justice.gov/oig/RecoveryAct.htm.



                                           i
scope of this audit covered the period from CHRP’s creation in February 2009
through December 2009. Our audit also examined issues relating to COPS
grant management activities and CHRP that were reported to COPS in 2009,
during the creation of CHRP.2

      Our audit work was performed at COPS headquarters in
Washington, D.C., and included interviews of the COPS officials responsible
for the creation and implementation of the CHRP program. We also collected
and reviewed documentation and data from COPS regarding CHRP, and from
the 7,272 submitted applications from those agencies that applied for CHRP
funding. Appendix I contains a more detailed description of our audit
objectives, scope, and methodology.

OIG Results in Brief

      We found that COPS issued the $1 billion in grant funds for the COPS
Hiring Recovery Program in a timely, transparent, and merit-based manner,
and generally met the requirements established in the Recovery Act. COPS
received a total of 7,272 applications for the grant funds and granted
funding to 1,046, or about 14 percent of the applicants.

       As we detail in this report, however, in our examination of the
implementation of the CHRP program we identified inaccuracies in some of
the formulas that COPS used to score and rank grant applications. These
inaccuracies resulted in the allocation of grants to 45 agencies that should
not have received grants, while another 34 agencies that should have
received grants did not. In addition, we identified six grantees that, because
of the inaccuracies in the formulas used by COPS, received more officer
positions than they should have, and six grantees that received fewer officer
positions than they should have.

      In response to our findings, COPS has agreed to remedy these
inaccuracies by applying the corrected scoring formulas to the CHRP
application list and incorporate additional steps to its grantee selection
process for FY 2010 grants to ensure those applicants and grantees that
were negatively affected by the inaccurate formulas are awarded appropriate
FY 2010 funds.

      Additionally, we found that the validation process COPS used to ensure
the accuracy of the crime data submitted by applicants was inadequate. As
      2
         This report is one of a series of reports that we will issue during our ongoing
review of the Department’s management and oversight of Recovery Act funds allocated to
COPS’ CHRP program.



                                            ii
a result, we found that some agencies may have received grant funds based
on inaccurate applications. However, we were unable to determine the
number of applications that included inaccurate data. We did not disagree
with COPS’ decision that it would not retroactively determine which of the
awarded grants contained inaccurate information in the grant application
because it was not practical. COPS officials agreed with our concerns
regarding the applicant data, and COPS intends to correct the issue in future
grant awards.

       This report makes seven recommendations to COPS to improve the
grant award process, including to implement a remedy for those applicants
and grantees negatively affected by the inaccurate formulas, to improve
COPS’ evaluation and management of applicant data, and to address
concerns related to CHRP administration. Our report also recommends that
COPS increase coordination with OJP to improve information sharing and
avoid duplication of grant programs, improve grantee evaluation and
training, ensure that grantees comply with officer retention requirements,
and ensure that CHRP recipients implement programs in a timely manner
and in accordance with program terms and conditions.

      The remaining sections of this Executive Summary provide a further
discussion of our audit findings.

Development of the COPS Hiring Recovery Program

       COPS developed the COPS Hiring Recovery Program to distribute
$1 billion in Recovery Act grant funding to state, local, and tribal law
enforcement agencies to hire, rehire, and retain police officers. We found
that COPS took steps in the development of the CHRP program to meet the
requirements of the Recovery Act. We also found that COPS developed a
scoring framework that sought to balance the objectives of the Recovery
Act, which include job creation, assisting those most impacted by the
recession, and stabilizing state and local government budgets, with
objectives related to COPS’ authorizing statutes related to allocating equal
funding to both small and large jurisdictions, as well as ensuring that each
state or territory receives the funding dictated by law.

       To enable CHRP funding to be distributed widely, COPS developed a
methodology to establish the maximum number of officers any grantee could
be awarded. This capping methodology limited the number of funded officer
positions for each grantee to 5 percent of the agency’s actual sworn force or
50 officers, whichever was less. We reviewed COPS’ methodology and did
not find errors in its application.



                                      iii
      COPS was required to ensure CHRP complied with two major
requirements contained in COPS’ authorizing statutes. The first required
that at least 0.5 percent of program funding, or $5 million in the case of
CHRP, be allocated to each state or territory with eligible applicants.3 The
second required that CHRP program funding be evenly split between
grantees serving populations greater than 150,000 and grantees serving
populations of 150,000 or less.4 We reviewed the listing of CHRP award
recipients and determined COPS met both of these requirements.

      To select CHRP grantees, COPS developed a methodology that scored
and ranked each applicant based on data related to their fiscal and economic
conditions, rates of crime, and community policing activities. In general, the
applicants experiencing more fiscal and economic distress, higher crime
rates and that had more established community policing plans received
higher scores and were more likely to receive a grant.

      We reviewed how COPS translated the data provided by the CHRP
applicants in each of these categories into the scores of the applicants. We
determined that there were technical inaccuracies with some of the formulas
COPS used that resulted in inaccurate scores for some applicants. For
example, the CHRP program was intended to provide grants based on
economic need, but the formulas used in the scoring methodology did not
allocate points for some economic categories as COPS had anticipated. As a
result, some agencies that reported data indicating a higher need did not
receive grants.5

       Based on a recalculation of the scoring and ranking performed by
COPS after we brought these inaccuracies to its attention, we determined
that the inaccuracies in the selection process resulted in the misallocation of
grant funds. Specifically, 45 grantees received grants when they should not
have, representing $14,647,267 in CHRP funding (1.46 percent of all
awards). In addition, six grantees received funding for too many officer
positions. At the same time, 34 applicants that should have scored higher,
but did not because of the inaccuracies, were denied grants, representing
about 3.25 percent of the 1,046 CHRP award recipients. In addition, six
grantees received fewer officer positions than they should have as a result of


       3
          42 U.S.C. § 3796 dd(f) (2008) applies to the amount of funding received
collectively by all the grantees from a particular state or territory, not individual grantees.
       4
           42 U.S.C. § 3793 (a)11(B) (2008).
       5
           See Appendix II for a full discussion on the formulaic inaccuracies.



                                               iv
these formulaic inaccuracies. The lists of the agencies affected by the
inaccuracies and the recalculated formulas are included in Appendix III.

       In response to our audit, COPS corrected the formulaic inaccuracies in
its scoring methodology that we identified, which should prevent similar
inaccuracies from occurring for future awards. However, because CHRP
awards were already made by the time the inaccuracies were identified, we
believe COPS should implement a remedy for the 34 applicants that should
have been awarded CHRP grants, but were not, and for the 6 grantees that
were provided fewer officer positions because of the inaccurate formulas.

      In its response to this finding, COPS has proposed to remedy the
negatively affected applicants and grantees with FY 2010 grants.
 Specifically, COPS stated that it will apply the corrected scoring formulas to
the CHRP application list and incorporate additional steps to its grantee
selection process for FY 2010 grants to ensure those applicants and grantees
that were negatively affected by the inaccurate formulas are awarded
appropriate FY 2010 funds.6 We believe this is a reasonable approach, given
the effects of COPS’ original inaccurate formulas.

       In addition to the inaccuracies with the scoring of applicants, we
identified shortcomings in the procedures COPS used to identify whether
applicants had overstated their crime statistics in CHRP applications. Rather
than using crime rates to identify potentially overstated crime data, COPS
only used the actual number of crimes. Because COPS did not identify and
verify applications that possibly overstated statistics, we believe it is likely
there were agencies that received CHRP awards based on inflated statistics,
over other agencies that were denied funding. Unlike the fiscal scoring
formulas, it was not practical for us or COPS to correct for all the possible
overstatements, and to identify a revised list of grantees. However, COPS
agreed with our analysis and told us that new methods for identifying
overstated data would be developed in the future.

Follow-up of OIG Concerns Previously Reported to COPS

      In addition, we reviewed various issues that had come to our attention
during our audit work and were related to previous advice provided to
COPS.7 In the previous work, we noted several issues related to meeting
Recovery Act objectives and improving coordination with the Office of Justice

      6
          COPS was appropriated $298 million for its FY 2010 COPS Hiring Program.
      7
        Our previous advice was provided in the following: (1) Improving COPS Grant
Awarding, Monitoring, and Program Evaluation Processes FYs 2005 through 2008, June
2009 and (2) Improving COPS Management of Recovery Act Funds for CHRP, June 2009.


                                            v
Programs (OJP) on various grant administration issues. Specifically, we
encouraged COPS to engage in more information sharing with OJP, to
identify and work with grantees at greater risk of failing to meet officer
retention requirements, to ensure award recipients implement CHRP
programs in a timely manner, to consider providing its OJP partners with
remote access to the COPS Management System for oversight and
monitoring, and to make grantee training mandatory with accompanying
testing requirements. Based on our review of the steps taken by COPS
regarding these issues, as discussed below, we recommend that further
actions be taken.

Conclusion and Recommendations

      In developing the CHRP grant program, COPS generally met the
requirements established in the Recovery Act and related guidance issued by
the President and the Office of Management and Budget (OMB). However,
we identified inaccuracies in the scoring process that affected whether grants
were awarded, and the size of grants awarded to some applicants. In total,
because of the inaccuracies 34 agencies that should have received grants did
not, and 6 grantees received fewer officer positions than they should have.
At the same time, 45 grantees should not have received grants and 6
grantees received too many officer positions.

      In response to our finding, COPS intends to remedy these inaccuracies
by ensuring those agencies that were negatively affected will be provided
funding from the FY 2010 Hiring Program. We believe this is a reasonable
approach, given the effects of COPS’ original inaccurate formulas.

       In addition, we identified shortcomings in the procedures COPS used to
identify inflated crime statistics in CHRP applications. Because COPS did not
identify and correct these overstated statistics, we believe it is likely that
some agencies’ scores were inflated, and as a result they may have been
awarded grants based on inflated statistics over other agencies that were
denied funding. However, we could not define the number of recipients
whose scores were inflated. COPS agreed with our analysis and told us that
new methods for identifying overstated data would be developed in the
future.

      Finally, we noted issues related to COPS’ adherence to Recovery Act
objectives and to improving coordination with the Office of Justice Programs
(OJP) on various grant administration issues. We continue to recommend
that COPS engage in more information sharing with OJP; identify and work
with grantees at greater risk of failing to meet officer retention
requirements; ensure timely implementation of CHRP grants; provide to OJP


                                      vi
additional grants management documentation for oversight and monitoring,
such as remote access to the COPS Management System; and encourage
CHRP grantees to participate in grant management training.

      Our report contains seven recommendations to COPS, including
recommendations to remedy the effects of the inaccuracies in the scoring of
CHRP applicants, to improve COPS grantee selection processes, and to
improve coordination with the Office of Justice Programs relating to
oversight of DOJ grantees.




                                    vii
                                  TABLE OF CONTENTS


INTRODUCTION ...................................................................... 1 

       Prior Reports ...................................................................... 1   


FINDING AND RECOMMENDATIONS.......................................... 3

       Recovery Act ..................................................................... 3

       Memorandum from the President .......................................... 6

       Guidance from the Office of Management and Budget .............. 9

       State Minimum Share Requirement ..................................... 11

       Funding Allocation Requirement Based on Population Size ...... 13

       Applicant Eligibility ............................................................ 13

       Application Content and Scoring .......................................... 16

       Officer Capping Policy ........................................................ 17

       Scoring Equations ............................................................. 21

       Data Cleaning................................................................... 24

       Data Integrity .................................................................. 28

       Vetting CHRP Grantees ...................................................... 29

       Potential Overlap with Other Recovery Act Programs .............. 32

       Ensuring Compliance with Retention Requirement ................ 33

       Ensuring Timely Implementation of Programs ....................... 34

       Allowing OJP Remote Access to Grant Documentation ............ 35

       Ensuring Transparency of Funding ...................................... 36

       Grantee Training............................................................... 36

       Conclusion ....................................................................... 37

       Recommendations............................................................. 38

STATEMENT ON INTERNAL CONTROLS ......................................... 40

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....... 41 

APPENDIX I:        OBJECTIVES, SCOPE, AND METHODOLOGY ............. 42 

APPENDIX II: TECHNICAL REVIEW OF FORMULAS USED 

   IN THE GRANTEE SELECTION METHODOLOGY ......................... 43 

APPENDIX III: AGENCIES AFFECTED BY CHRP RESCORING ............ 46 

APPENDIX IV: AGENCIES THAT WITHDREW FROM CHRP .............. 50 

APPENDIX V:    COPS HIRING RECOVERY PROGRAM APPLICATION ... 51 

APPENDIX VI: THE OFFICE OF COMMUNITY ORIENTED POLICING 

     SERVICES’ RESPONSE TO THE DRAFT REPORT...................... 66 

APPENDIX VII: OFFICE OF THE INSPECTOR GENERAL 

     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
     TO CLOSE THE REPORT………………………………………………………………74
                                   INTRODUCTION

        The Department of Justice (DOJ) Office of Community Oriented
Policing Services (COPS), established with the passage of the 1994 Crime
Bill, is responsible for advancing community policing as a strategy to
improve public safety.8 According to COPS, since the passage of the Crime
Bill it has awarded over $12 billion in grants to state, local, tribal, and other
organizations to hire police officers, acquire law enforcement-related
communication technology, produce training materials for law enforcement
agencies, and fund other related initiatives. Although the amount of funding
for grants to hire police officers was significantly reduced after fiscal year
(FY) 2002, hiring grants represent more than 67 percent - $7.6 billion - of
the all grants awarded by COPS through FY 2008.

       In February 2009, Congress enacted the American Recovery and
Reinvestment Act of 2009 (Recovery Act) to provide a $787 billion stimulus
to the economy. One of the goals of the Recovery Act is to preserve and
create jobs. The Department received $4 billion of Recovery Act funds to
enhance state, local, and tribal law enforcement efforts, of which $1 billion
went to COPS for a grant program to hire and retain career law enforcement
officers.

      Soon after the enactment of the Recovery Act, COPS began collecting
applications for grant funding. Between March 16, 2009, and April 14, 2009,
COPS collected applications from more than 7,000 law enforcement agencies
from around the country and U.S. territories. These agencies requested
about 39,000 officer positions totaling more than $8.3 billion, or more than 8
times the available Recovery Act funding. On July 28, 2009, COPS
announced the selection of the 1,046 grantees (approximately 14 percent of
the total applicants), funding 4,699 officer positions.

Prior Reports

       In the fall of 2008, prior to the passage of the Recovery Act, the OIG
initiated a performance audit of COPS. That audit was designed to examine
COPS’ overall grant-making processes, including detailed testing of COPS
awards and monitoring efforts for FYs 2005 through 2008. However, in light
of the significant amount of COPS’ Recovery Act funds and the shift in focus
on the COPS programs that would be funded, the OIG shifted the focus of its
audit to Recovery Act issues.



      8
          The Violent Crime Control and Law Enforcement Act of 1994, Pub. L. No. 103-322
(1994).


                                            1

      In June 2009, we issued a report memorandum that summarized our
work on the COPS program prior to the enactment of the Recovery Act and
provided COPS with feedback concerning COPS’ grant administration
practices.

      Also in June 2009, before COPS completed its grantee selection
process for CHRP, we provided COPS with a memorandum that outlined our
concerns related to its use of Recovery Act funds. Specifically, the
memorandum provided an overview of our concerns relating to the vetting of
grantees, timely implementation of the CHRP, the overall transparency of
CHRP, potential duplication with other DOJ grant programs, and ensuring
grantees were able to retain officers after federal funding ended.




                                    2

                      FINDING AND RECOMMENDATIONS

       We determined that in developing the CHRP grant program,
       COPS generally met the requirements established in the
       Recovery Act and its related guidance issued by the President
       and the Office of Management and Budget (OMB). COPS also
       met its statutory requirements related to minimum allocations to
       states and territories and the distribution of funding based on
       the size of a recipient’s population. In selecting CHRP grantees,
       COPS developed a methodology that scored and ranked
       applicants based on data related to fiscal and economic
       conditions, rates of crime, and community policing activities. We
       determined that there were inaccuracies with some of the
       formulas COPS used to translate the data provided by the
       grantees into scores for some applicants. These inaccurate
       scores resulted in the allocation of grants to 45 agencies that
       should not have received grants, while another 34 agencies that
       should have received grants did not. In addition, we identified
       six grantees that received more officer positions than they
       should have, and six grantees that received fewer officer
       positions than they should have. We also identified
       shortcomings in the validation procedures COPS used to ensure
       the data in applications was correct, and we concluded that it
       was likely that agencies that used inaccurate data in their
       applications had inflated scores which could have resulted in
       them receiving CHRP awards while other agencies were denied
       funding. Finally, despite our prior recommendations regarding
       COPS’ grant administration, we continue to have concerns
       related to COPS’ efforts to share information on potential
       grantees with other Department components.

Recovery Act

      The three purposes listed in Section 3 of the Recovery Act that we
believe are most relevant to CHRP are: (1) to preserve and create jobs and
promote economic recovery, (2) to assist those most impacted by the
recession, and (3) to stabilize state and local government budgets, in order
to minimize and avoid reductions in essential services and counterproductive
state and local tax increases.9

       9
           Pub.L. No. 111-5, Section 3(a)1, 2, and 5. (2009). The remaining two purposes
listed in Section 3 of the Recovery Act are to: (1) provide investments needed to increase
economic efficiency by spurring technological advances in science and health; and (2) invest
in transportation, environmental protection, and other infrastructure that will provide long-
term economic benefits.


                                             3

      The Recovery Act directed COPS to implement a $1 billion grant
program to fund the hiring and rehiring of law enforcement officers.10 In
response, COPS developed the CHRP, which permitted grantees to use
funding to hire new officers and re-hire officers previously laid off. In
addition to funding new hires and rehires, COPS designed CHRP to permit
the use of funds to retain officers scheduled to be laid off.

     The following table reflects the distribution of the types of officers
funded from CHRP grants as of December 2009.

    Distribution of the Types of Officers Funded from CHRP Grants

                                                           Percentage
                                        Number           of Total CHRP-
             Type of Officer           of Officers      Funded Officers
             New hires                       3,688             78%
             Rehires                           145              3%
             Scheduled Layoffs                 866             18%
             Total                           4,699           100%a
              a) Total off due to rounding.

              Source: COPS as of December 29, 2009 


      Hiring new officers addresses the purposes of the Recovery Act. In
addition, rehiring previously laid-off officers and continuing the employment
of existing officers scheduled to be laid off also addresses the purpose of the
Recovery Act to preserve jobs. However, we initially had concerns that
COPS was exceeding its authority because the underlying COPS statute only
allows for hiring and rehiring officers and forbids the substitution of local
funds with COPS grants, also known as supplanting.

       We discussed this issue with COPS officials, who noted that the statute
does not define what a rehired officer is, nor does it require a minimum time
period that an officer must be separated from the grantee to be considered a
rehired officer. They also stated that COPS has significant discretion in
terms of implementing its programs and considers positions “scheduled for
layoff” as eligible rehires, provided the grantee is able to document that the
officer would have been laid off without the COPS grant. COPS officials
stated that using this definition of a rehire is more efficient, because using a

       10
          For an additional amount for ‘‘Community Oriented Policing Services’’, for grants
under section 1701 of title I of the 1968 Omnibus Crime Control and Safe Streets Act
(42 U.S.C. § 3796dd) for hiring and rehiring of additional career law enforcement officers
under part Q of such title, notwithstanding subsection (i) of such section, $1,000,000,000.


                                             4

grant award to keep an officer scheduled to be laid off avoids the time and
paperwork associated with laying off an officer 1 day, just to rehire that
officer the next day.

       We also reviewed the special conditions in the CHRP application
regarding the use of CHRP grants to pay for officers scheduled to be laid off.
These conditions required CHRP applicants to certify that their agency had
and would maintain documentation showing the date of the scheduled layoff
and that the scheduled layoff would occur for fiscal reasons unrelated to the
availability or receipt of CHRP grant funds.11 Applicants were also required
to certify that their agencies would use their own funds to continue funding
these officers until the scheduled date of the layoff and would use CHRP
funds to rehire these officers only on or after the scheduled date of the
layoff.

       Although we remain concerned about the potential for supplanting
local funding with CHRP funding, we do not object to COPS using CHRP
grants to fund officers scheduled to be laid off, for the reasons provided by
COPS and because of the inclusion of the certifications contained in the
CHRP application. We also note that 78 percent of the CHRP funding went
for the hiring of new officers.

       After the CHRP grants were awarded in July 2009, some grantees that
have experienced an adverse change in their local fiscal and economic
condition have requested to modify their original CHRP award to reallocate
funding to the category of rehiring officers that have been laid off since their
application was submitted. This category also included rehiring officers who
were officially laid off after the CHRP application was submitted or any
officers who were scheduled for layoff that the grantee seeks to prevent with
CHRP funding.




       11
           According to COPS, documentation that may be used to prove that scheduled
layoffs are occurring for local economic reasons that are unrelated to the availability of
CHRP grant funds may include, but is not limited to, council or departmental meeting
minutes, memoranda, notices, or orders discussing the layoffs; notices provided to the
individual officers regarding the dates of the layoffs; and/or budget documents ordering
departmental and/or jurisdiction-wide budget cuts. These records must be maintained with
an agency’s CHRP grant records during the grant period and for 3 years following the official
closeout of the CHRP grant in the event of an audit, monitoring, or other evaluation of grant
compliance.



                                             5

      As of December 29, 2009, a COPS official told us that it approved 29
of the 33 modification requests to move funding from the new hire category
to the scheduled layoff category, for a total of 130 officer positions.12

Memorandum from the President

      On March 20, 2009, the President issued a memorandum to the heads
of executive departments and agencies regarding the spending of Recovery
Act funds.13 This memorandum covered the following three topics:
(1) awarding grants using merit-based decision-making, (2) avoiding
imprudent projects, and (3) ensuring transparency of registered lobbyist
communications.

       We determined COPS generally complied with the President’s directive
to use transparent, merit-based selection criteria to guide its available
discretion as the basis for awarding CHRP grants. In addition to data on
local economic conditions and the fiscal health of applicants already
mentioned, the criteria COPS used included crime-related statistics and
information regarding each agency’s community policing practices and plans.

      The President’s directive required that “no considerations contained in
oral or written communications from any person or entity concerning
particular projects, applications, or applicants for funding shall supersede or
supplant consideration by executive departments and agencies of such
projects, applications, or applicants for funding pursuant to applicable merit-
based criteria.”

      Prior to announcing the grant recipients, COPS staff met with officials
representing at least 33 local and state law enforcement agencies regarding
CHRP grant funding and also held individual meetings with some applicants.
In addition, COPS staff participated in conference calls and workshops
sponsored or attended by members of Congress. Thus, COPS had more
contact with those grantees that attended the information sessions and
meetings than those that did not. However, after reviewing the COPS
selection process, we concluded that COPS objectively selected the CHRP


       12
          Three requests were withdrawn because the grantees determined they would be
able to maintain funding for existing officers and wanted to stay in the new hire category.
One request was denied because the agency was not able to document that the one officer
it was seeking to move to the rehire category had been laid off or had been scheduled for
layoff.
       13
          Executive Memorandum for Heads of Executive Departments and Agencies:
Ensuring Responsible Spending of Recovery Act Funds, March 20, 2009.



                                             6

award recipients and that communication with applicants beyond the
information contained in grant applications did not affect COPS’ decision-
making process.

       COPS decided not to make public its methodology for scoring and
ranking all of the data contained in the CHRP application because it was
considering using the same methodologies in the future. Although this
reduced the transparency of COPS decision making, COPS provided us with
complete access to these methodologies. We discuss our review of the
entire scoring and ranking process and other issues related to transparency
later in this report.

      We also determined that COPS established eligibility standards for
CHRP applicants and completed COPS routine vetting procedures on all
applicants. We believe COPS reduced the risk that CHRP grants would fund
imprudent projects by not considering applications from certain types of
applicants, such as start-up law enforcement agencies, agencies without
primary law enforcement authority, and agencies without legislation that
authorized sworn officers with full arrest authority and full police powers.

       COPS also completed its normal vetting procedures on all CHRP
applicants. These vetting procedures included contacting Department of
Justice (Department or DOJ) offices for any information they had indicating
that awarding a grant to a particular agency may be inadvisable.14 This
topic is also discussed later in this report.

      Finally, the President’s directive was intended to promote transparency
in the communications between agencies and federally registered
lobbyists.15 On April 13, 2009, the DOJ Assistant Attorney General for
Administration issued a memorandum to the Acting COPS Director and the
heads of other Department components administering Recovery Act funds
that expanded on the guidance contained in the President’s memorandum
and included frequently asked questions and a sample lobbyist contact
disclosure form. The memorandum outlined the actions DOJ components
were required to take whenever receiving or participating in oral or written
communication with federally registered lobbyists.

       14
           These Department offices include the U.S. Attorneys’ Offices, the Civil Rights
Division, the OIG Investigations Division, the OJP Office of Civil Rights, the DOJ Public
Integrity Section, and the Criminal Division.
       15
            OMB Memorandum M-09-16, Interim Guidance Regarding Communications with
Registered Lobbyists About Recovery Act Funds dated April 7, 2009, provided further
clarification concerning communications with lobbyists.



                                              7

       Instructions from COPS’ General Counsel to all COPS staff on April 27,
2009, included a copy of the memorandum from the Assistant Attorney
General and detailed instructions to COPS staff that they could not
communicate with registered lobbyists about a specific project, application,
or applicant. These instructions noted to COPS staff that communications
with lobbyists could only address specific projects in writing and any such
communications must be noted publicly on the COPS website. Additionally,
if a federally registered lobbyist sought to discuss a specific project, COPS
staff must stop communication, inform the lobbyist of the requirements, and
refer the lobbyist to COPS’ External Affairs Division.16

      Finally, because COPS believed the members of its Executive
Management Team were the most likely staff to be contacted by lobbyists,
the COPS General Counsel emphasized the importance of complying with
these new polices in a separate instruction specifically for the team.17

       We reviewed the Department’s registered lobbyist contact disclosure
form and found that COPS staff reported three contacts with registered
lobbyists prior to the announcement of CHRP grant recipients. Two of these
contacts involved members of COPS’ Executive Management Team while the
third contact was made with Response Center staff. COPS also reported a
fourth contact with a lobbyist after the CHRP grant awards were announced
on July 28, 2009. According to COPS, the issues discussed with lobbyists
prior to the announcement of CHRP grantees were general in nature. In
addition, we determined during our review that the grantee selection process
was data-driven, and we found no evidence that these types of contacts
influenced the selection decisions by COPS officials. Based on our review we
did not identify concerns with COPS’ contact with registered lobbyists.




       16
           COPS also issued specific guidance for staff working in the COPS Office Response
Center. The Response Center served as the initial contact point and clearinghouse for those
seeking general information on COPS grants, training, and publications. Because the
Response Center was designed to provide general and logistical information and refer
questions regarding specific grants to the appropriate COPS divisions, COPS considered it
unlikely that Response Center staff would engage in any prohibited communication with
federally registered lobbyists. Although COPS considered it unlikely that the Response
Center would field calls from lobbyists, Response Center staff were provided additional
guidance from the COPS General Counsel on identifying lobbyists, documenting the contact,
and referring the contact to the COPS External Affairs Division.
       17
           The COPS Executive Management Team includes the COPS Office Director (or
Acting Director, when appropriate), Chief of Staff, Deputy Director for Operations, Deputy
Director for Support, Deputy Director for Management, and General Counsel.



                                             8

Guidance from the Office of Management and Budget

       In addition to the Recovery Act purposes and requirements set out in
the President’s memorandum, COPS was required to adhere to government-
wide guidelines established by the Office of Management and Budget
(OMB).18 These guidelines provided specific steps for all federal agencies to
implement, or prepare to implement, in order to effectively manage
activities under the Recovery Act. We reviewed COPS’ compliance with the
requirements in these guidelines that we considered the most relevant to
administering CHRP grants, including: (1) ensuring funds are awarded and
distributed in a prompt, fair, and reasonable manner, (2) engaging in
aggressive outreach to potential applicants, including posting grant
announcements to Grants.gov and its own website in a timely manner, and
(3) ensuring recipients and uses of all funds are transparent to the public.19

       We concluded that COPS awarded CHRP funding in a prompt and
reasonable manner given the large number of applicants and large volume of
data considered under a relatively short period of time. Specifically, COPS
developed and implemented an objective, data-driven methodology for
scoring and ranking 7,203 applicants, and announced the decisions to CHRP
grantees within 6 months after the Recovery Act was enacted.20 We also
believe the CHRP grantee selection methodology and funding allocation rules
established by COPS were generally fair to applicants, with the exception of
the problems related to the applicant scoring and ranking issue that affected
a relatively small percentage of CHRP funding. These issues are detailed
later in this report.


       18
         These guidelines were issued initially on February 18, 2009, in memorandum
M-09-10 Initial Implementing Guidance for the American Recovery and Reinvestment Act of
2009 and subsequently updated on April 3, 2009, with memorandum M-09-15 Updated
Implementing Guidance for the American Recovery and Reinvestment Act of 2009.
       19
          Grants.gov is managed by the U.S. Department of Health and Human Services
and is the federal government’s central storehouse for information on grant programs and
provides access to approximately $500 billion in annual awards. Due to concerns over the
capacity of Grants.gov, on March 9, 2009, OMB issued memorandum M-09-14 Recovery Act
Implementation – Improving Grants.gov and Other Critical Systems. This memorandum
instructed agencies to identify alternative methods for accepting grant applications to
reduce demand on Grants.gov’s limited resources during the expected peak period for
Recovery Act award applications.
       20
           COPS scored all but 69 of the 7,272 CHRP applications it received, or 7,203
applications. In this report we detail the reasons why 71 agencies were not considered for
funding, including 2 agencies that were scored but that either withdrew their applications or
were vetted off during the scoring process.



                                              9

      To enhance the timely awarding of grants, the OMB guidance required
agencies to engage in outreach to potential applicants to begin application
planning activities, including the process for Central Contractor Registration
(CCR) and obtaining a Dun and Bradstreet Data Universal Numbering
System (DUNS) number.21 Agencies were also required to post funding
opportunity announcements to Grants.gov within 20 days of the enactment
of the Recovery Act, with a link to the full announcement on the COPS
website within 30 days of enactment.

      COPS posted an outreach letter to its website on February 17, 2009,
which included general CHRP information and encouraged potential
applicants to check that their CCR and DUNS information was current in
order to ensure that they could complete their applications in a timely
manner.

      The Recovery Act was enacted on February 17, 2009, and required
COPS to post announcements on Grants.gov within 20 days, or by March 9,
2009. COPS’ announcements were posted on March 16, 2009, or 7 days
late. COPS began accepting CHRP applications through its website on March
16, or 3 days prior to the deadline of 30 days following enactment of the
Recovery Act. According to a COPS official, the reason for the late posting
was a result of issues COPS had in transmitting information to Grants.gov.
Based on the significant number of applications submitted for the CHRP
grants, we believe that the slight delay in posting of the CHRP
announcement did not have a negative impact on the program and that the
outreach efforts by COPS were reasonable.

       We next reviewed information on CHRP recipients and the uses of
CHRP funding that COPS made public immediately following the
announcement of CHRP grant awards to determine whether COPS met the
transparency requirements of the OMB guidance. COPS developed a CHRP
Announcement Toolkit providing details on how the application was created
and general information on the selection process. COPS posted the Toolkit
to its website along with applicant rankings by state, state summaries,
frequently asked questions (FAQs), and an interactive map for the public to
view CHRP funding data by state. Based on our review, we concluded that
COPS satisfied the transparency requirements that we examined.




      21
          Data Universal Numbering System numbers are unique nine-digit identification
numbers Dun and Bradstreet assigns to commercial and government entities. It is a tool of
the federal government to track how federal money is distributed.


                                           10 

State Minimum Share Requirement

      One of the most important aspects of the Recovery Act is the
requirement for agencies use merit-based decision-making when selecting
recipients. COPS was also required to satisfy a requirement to ensure that
agencies from each state and territory that submitted applications received
at least 0.5 percent of grant program funding. For CHRP, this meant that a
grantee or group of grantees from each state or territory would collectively
receive at least $5 million unless a lesser amount was requested.22

       We found that for COPS to ensure that grantees from each state and
territory collectively received the minimum amount of CHRP funding, some
lower-ranked applicants from states under the required minimum received
grants, while other higher-ranked applicants from states exceeding the
minimum did not receive grants.23 COPS efforts to meet the state minimum
share requirement affected approximately $77 million, or nearly 8 percent of
total CHRP funding. Of the 54 states and territories from which agencies
applied, applicants from 25 states with higher-ranked applicants did not
receive funding while lower-ranked applicants from another 25 states
received funding as a result of meeting this requirement. In all, to meet the
state minimum requirement, 200 applicants were funded for a total of 420
officers, while another 113 higher ranked applicants did not receive awards
for 394 officers.

     As shown in the following table, we found that without the state
minimum requirement four states and one territory would not have received
CHRP funding.




       22
          The statutory requirement states that unless all applications submitted by any
state have been funded, each state shall receive not less than 0.5 percent of the total
amount appropriated. 42 U.S.C. § 3796dd(f) (2008).
       23
            Later in this report we detail the merit-based applicant ranking methodology.


                                              11 

                 States and Territories Receiving CHRP Funding 

                  Only Due to the State Minimum Requirement 


                                                                   Amount of
       State or Territory      Applicants            Officers   Funding Received
1.   Hawaii                         1                   21            $ 5,197,353
2.   Wyoming                       23                   27            $ 5,150,327
3.   South Dakota                  17                   30            $ 5,103,052
4.   Maine                         18                   30            $ 5,098,572
5.   Northern Mariana Islands       1                    9              $ 519,048
                         Total     60                  117          $ 21,068,352
          Source: OIG analysis of COPS data

       In addition to these 4 states and 1 territory that received all of their
CHRP funding as a result of the state minimum rule listed in the table above,
applicants from another 20 states received between $216,000 and $4.9
million to ensure they received at least $5 million.

      To ensure that each state received the mandatory minimum share of
at least $5 million, COPS was required to reduce funding from agencies in
other states that would have been selected using the merit-based selection
process. The following table shows the six states that did not receive the
most CHRP funding as a result of the minimum share requirement.

             Top Six States Not Receiving Potential CHRP Funding 

                Resulting From State Minimum Requirements 


                                                           Amount of Potential
           State             Applicants        Officers     Funding Reduced
     1. Tennessee
                                        5             67          $ 10,796,778
     2.   California                   10             30          $ 9,752,445
     3.   North Carolina                6             47          $ 7,082,374
     4.   Massachusetts                 5             30          $ 6,763,328
     5.   Florida                       8             32          $ 5,778,596
     6.   New Jersey                    4             21          $ 5,193,261
                     Total             38            227         $ 45,366,782
          Source: OIG analysis of COPS data

      In addition to these six states, applicants from another two states did
not receive between $120,000 and $4.3 million to ensure the state minimum
requirement was met.




                                              12 

Funding Allocation Requirement Based on Population Size

      A second major requirement contained in the COPS statute required
that grant funding be equally distributed between agencies that have
primary law enforcement jurisdiction over populations of greater than
150,000 and those that have populations of 150,000 or less.24 In effect, this
requirement created two separate grant programs, one for large agencies
that serve populations over 150,000 and another for small agencies serving
populations below 150,000.

       We reviewed the grants COPS awarded to agencies according to their
size, either large or small, and determined COPS properly allocated CHRP
funding allocation according to the size of the grantees. The following table
summarizes CHRP grants based on size of populations served.

    Number and Value of CHRP Grants by Size of Population Served

                                                        Number of
Grants by size of population served                      Grantees Value of Grants
Grants for Agencies serving small populations                  961    $499,857,510
Grants for Agencies serving large populations                   85    $500,097,924
                                                                 25
Total                                                      1,046    $999,955,43426
Source: COPS

Applicant Eligibility

      COPS established eligibility requirements for CHRP funding based on
the characteristics of the law enforcement agencies that were expected to
apply. Using these eligibility standards, COPS estimated the number of
potentially eligible applicants at approximately 15,000, or about twice the
number of jurisdictions that applied for CHRP grants (7,272). The following
table summarizes the CHRP eligibility worksheet COPS posted on its internet


       24
            42 U.S.C. § 3793(a)(11)(b) (2008).
       25
            According to COPS, 13 of the original 1,046 announced CHRP recipients have
officially declined to accept their CHRP grant as of January 2010. The total amount of these
awards is approximately $5.5 million. Because one of these agencies, Windsor, Vermont,
brought Vermont’s cumulative grant total under $5 million, COPS awarded one additional
grant to Randolph, Vermont for $136,033. No decision on how to use the remaining funds
was made as of January 2010.
       26
          As of July 28, 2009, $44,566 of the $1 billion in CHRP funding remained
unobligated because it was an insufficient amount to fund an entire grant. No decision on
how to use the funds was made as of January 2010.


                                            13 

website to allow agencies to determine whether they should submit an
application for a CHRP grant.




                                   14 

                           CHRP Eligibility Worksheet
      Eligibility Worksheet Question                            Eligibility Defined
                                               Start-up agencies are not eligible for funding
Is your law enforcement agency a start-          under this program. If you select YES, the
              up agency?                       system will prevent you from completing the
                                                         rest of the grant application.
                                                Agencies applying for funds as a consortium
                                                     are not eligible for funding under this
                                                   program. However, agencies within that
Is your agency applying for this grant as
                                                     consortium are encouraged to apply
    part of a consortium of agencies?
                                              individually. If you select YES, the system will
                                                prevent you from completing the rest of the
                                                                grant application.
                                               Only Federally Recognized Tribes are eligible
                                                     to apply for funding under this grant
Is your agency a Tribal law enforcement
                                                 program. If you select NO, the system will
               agency?
                                                prevent you from completing the rest of the
                                                                grant application.
                                                Only Federally Recognized Tribes that either
                                                have their own established law enforcement
                                               agency or plan to use the grant funds to pay
 Is your agency applying for funds under
                                               for contract services with the BIA are eligible
this grant to contract for law enforcement
                                                     to apply for funding under this grant
                 services?
                                                 program. If you select NO, the system will
                                                prevent you from completing the rest of the
                                                                grant application.
                                                     Only agencies that have primary law
                                              enforcement authority are eligible to apply for
                                               funding under this grant program. An agency
                                                 with primary law enforcement authority is
 Does the law enforcement agency have             defined as the first responder to calls for
primary law enforcement authority for the             service, and has ultimate and final
           population served?                   responsibility for the prevention, detection,
                                                    and/or investigation of crime within its
                                               jurisdiction. If you select NO, the system will
                                                prevent you from completing the rest of the
                                                                grant application.
                                                 Agencies that do not have legislation that
 Is your law enforcement agency a type           authorizes sworn law enforcement officers
other than a local, state, or tribal agency         with full arrest authority and full police
(e.g., Transit, School, University/College,    powers are not eligible for funding under this
Public Housing, Natural Resources, Parks,       grant program. If you select NO, the system
                   etc.)?                       will prevent you from completing the rest of
                                                              the grant application.
                                                    Agencies that do not plan to retain all
  Has your agency planned to retain all
                                                position(s) awarded under CHRP for at least
  position(s) awarded under this grant
                                                12 months are not eligible for funding under
program for at least 12 months following
                                                  this grant program. If you select NO, the
  the conclusion of 36 months of grant
                                               system will prevent you from completing the
                funding?
                                                          rest of the grant application
     Source: COPS



                                              15
      Although COPS designed the CHRP online application system to
prevent ineligible applicants from applying, COPS determined that 42
agencies incorrectly completed the eligibility worksheet and submitted
applications. As part of the procedures used to ensure accurate data was
submitted by applicants, COPS identified and removed the 42 agencies from
consideration. The following table summarizes the reasons why these
agencies were deemed ineligible.

                          Ineligible CHRP Applicants

             Reasons Why Applicants Were           Number of
                         Ineligible                Applicants
            Not Primary Law Enforcement –
            Attorney Offices                                  10
            Not Primary Law Enforcement -
            Motor Vehicle Agencies                              2
            Not Primary Law Enforcement –
            Task Forces                                         3
            Start-Up Agencies                                   3
            Not Primary Law Enforcement –
            Various Agency Types                             24
            Total                                            42
           Source: COPS

Application Content and Scoring

      Since the CHRP grantee selection process was objective and data-
driven, we considered the most critical elements of the process to have
been: (1) the type of information COPS collected in the application, and
(2) how this information was scored to identify those agencies that would
receive funding.

       As described earlier in this report, COPS balanced the statutory
requirements of the Recovery Act relating to economic priorities with crime
and community policing related priorities contained in its authorizing
legislation. This balance, reflected in the three sections of the CHRP
application, is presented in the following table.




                                     16 

                Related Statute, Priority, Data, and Scoring

   Related                                                  COPS Related Statute
                     Recovery Act Priorities
   Statute                                                  and Historical Mission
                                                                    Crime and
   Priority                 Economic
                                                               Community Policing
Examples of                                          For Crime: FY 2008 data for major
 Application      Changes in fiscal health of the    types of crime
     Data        agency over FYs 2007, 2008, and
 Considered       2009, such as unemployment         For Community Policing: Responses to
    in the       and poverty rates, recent layoffs    multiple choice questions regarding
Development               and furloughs                  community policing plans and
  of Scores                                                        strategies
 Percent of
                               50%                                   50%
Overall Score
      Source: COPS

       According to COPS, its program development staff consulted with
experts in the fields of policing, criminology, and public finance to develop
the individual application questions that attempted to measure the relative
fiscal health of law enforcement agencies and their local governments, as
well as the levels of crime and community policing activities within their
jurisdictions. Generally speaking, the CHRP scoring process was designed to
favor applicants in poorer economic areas with high rates of crime and more
developed community policing plans.

       In our view, while the data COPS collected to score applicants in the
areas of crime and community policing appears fairly straightforward,
evaluating an applicant’s fiscal health is more complex. The CHRP
application included a variety of fiscal health questions to permit COPS to
obtain a more complete view of the fiscal distress being experienced by
applicants through objective and verifiable indicators that all agencies, from
rural communities to large cities, could report. However, we identified
problems in some of the formulas COPS used to calculate these indicators.
As detailed below, these problems resulted in the erroneous allocation of
approximately $14.8 million of CHRP grants.

Officer Capping Policy

       COPS initially anticipated the $1 billion in grant program funds would
pay for the full salary and benefits of approximately 5,500 law enforcement
officers for 3 years.27 However, COPS initially did not place a limit on the

      27
          The actual number of officers funded was 4,699 or approximately 15 percent less
than the 5,500 COPS initially expected. COPS officials told us this was caused by fringe
benefit costs that were much higher than they anticipated.


                                           17 

number of officers any one agency could request for funding in the CHRP
application because it was uncertain of how much interest the law
enforcement community would have in this grant program. However, the
response from law enforcement agencies was larger than expected, with
7,272 agencies requesting $8.3 billion in grants to fund approximately
40,000 officers, or more than 7 times the 5,500 officers COPS originally
estimated.

       COPS recognized that without a limit or “cap” on the number of the
officers that any one grantee could receive funding for, less than 300
agencies could share the entire $1 billion of CHRP funding. COPS concluded
that “the breadth of needs across the country would be best served by a
capping system that would limit the size of awards and, thus, distribute
officers to more jurisdictions.”28

       After a preliminary ranking of applicants was conducted, COPS
considered different possible capping methodologies to gauge the effect
various caps would have on the number of grantees. Of these
methodologies, COPS considered options using a combination of caps that
limited the number of grant-funded officers equal to a certain percentage of
an agency’s existing force, while also limiting the number of officers using an
absolute number. For example a 10 percent cap on an agency with an
existing force of 100 officers would restrict the number of grant funded
officers to 10, while adding an absolute number of grant funded officers
limitation would further cap the number of officers, such as limiting funding
to 10 officers per requesting agency. As discussed earlier in this report,
COPS was also required to evenly split the CHRP funding among grantees
serving large and small populations. As a result, a combination of the
capping methodologies was examined, using both a percent and an absolute
number cap.

      The following chart presents COPS’ estimates for the impact on the
number of grantees resulting from three scenarios: (1) no cap, (2) a cap of
10 percent of the existing force with a maximum of 100 officers, (3) a cap of
5 percent of the existing force with a maximum of 50 officers.




       28
           Timothy J. Quinn, Acting Director, Office of Community Oriented Policing Services
(COPS), memorandum to Attorney General, COPS Hiring Recovery Program Application
Policies, June 3, 2009.


                                            18 

                 Estimated Impact (Number of Officers Funded)
                          d                       c      d
                       of CHRP Officer Capping Scenarios
                                 f        p       n

                                                                          962
                                                                    884




                                                   492
                                                   4
                                             450


                      259       9
                              279


                                                               78
                20                     4
                                       42


                     No Cap         10% 100 office Cap
                                      %,         er          5%, 50 officer Cap




            Large Grantees
                         s           Sm Grante
                                      mall   ees              Total Grantees

      Source: COPS

       As the chart shows, COPS estimated that the 5 percent of existing
                                   t        h                   f
sworn force and 50 officer cap would result in doubling the total number of
                          r        l         n        g          l
grantees compared to the same number resulting from a 10 percent of
       e         r                 m        u         m         r
existing sworn force and 100 officer cap. The 5 percent of existing sworn
       g        o                  r         e        n         t        n
force and 50 officer cap would also provide three times the number of total
                                             h        s        m         t
grantees compared to no cap at all, while ensuring that CHRP funding was
       e         r                 ,         s        a         u
evenly split between agencies serving small and large populations. As a
                w
result, COPS chose this formula to broaden the distribution of funds.29
                o                                     u         u
According to COPS, this cap ensured the maximum number of agencies
        i        P        a                  x
would be funded without reducing any particular agency’s award to a level
                                             u        c         d        e
that would no longer make the funding a meaningful increase to force
       o         n        e        d         a        n         o
strength.
       t

     We assessed the effects of using this cap and found that 697 of the
               e        f        s          a        u                  e
1,046 grantees – approximately 67 percent - had their requests for officers
                        m                            r        s         e

      29
       9
         COPS consulted with and received approval from the Associate Attorney General
                                        e                     s         t         e
and the Deputy Attorney General to use this capping methodology.
                  o         r           h



                                            19
reduced by at least one officer. In total, these agencies’ requests were
reduced by 6,814 officers. Of those affected by the cap, 75 percent, or 533
grantees, had their requests reduced by at least 5 officers. Although the
majority of agencies were affected by the cap, just 15 grantees combined to
account for nearly 40 percent of all officers reduced. The following table
includes information on those grantees.


     CHRP Grantees with the Largest Reductions in the Number of 

              Officers Awarded as a Result of the Cap


                                                                                Officers
                                        Actual     5%      50                  Requested
                            Positions   Sworn      Cap   Officer   Officers     But Not
      City, State           Requested   Force             Cap      Awarded      Awarded
 Los Angeles, CA               450       9,867     493      50         50          400
 Chicago, IL                   400      13,128     656      50         50          350
               30
 Memphis, TN                   300       2,100     105      50         37          263
 San Francisco, CA             268       2,376     119      50         50          218
 Guam                          200        289      14       50         14          186
 Caguas, PR                    176        169       8       50          8          168
 Atlanta, GA                   200       1,649     82       50         50          150
 Philadelphia, PA              200       6,827     341      50         50          150
 Honolulu, HI31                150       2,112     106      50         21          129
 Toledo, OH                    150        628      31       50         31          119
 Cincinnati, OH                157       1,115     56       50         50          107
 Columbus, OH                  151       1,894     95       50         50          101
 Charlotte-
 Mecklenburg, NC               150       1,672     84       50         50          100
 Dallas, TX                    150       3,474     174      50         50          100
 Washington, DC                150       4,050     203      50         50          100
                    Total     3,252                                   611         2,641
Source: COPS

      The table above also includes 12 of the 24 grantees with sworn forces
greater than 1,000 officers for whom the 50 officer cap reduced the
maximum number of officers they could be awarded to less than 5 percent,
potentially an insignificant percentage increase in officers. Specifically, for

        30
          As part of the July 2009 CHRP award announcement, the Memphis Police
Department received fewer officers than its 50-officer cap because it was not funded for
some officers as a result of the state minimum requirement.
        31
        The Honolulu Police Department received 21 officers only as a result of the state
minimum requirement. The fewest possible number of officers necessary to meet the state
minimum requirement was 21, so neither cap was applied.


                                            20 

the 5 grantees that have sworn forces of approximately 3,000 or more
officers – Los Angeles; Chicago; Philadelphia; Washington, D.C.; and Dallas
– the percentage increase in their sworn forces as a result of their CHRP
grants ranged between 0.38 and 1.44 percent.

      COPS’ officer capping policy resulted in a small number of larger
agencies receiving only marginal increases in their sworn officer forces.
However, the capping policy also increased the total amount of officers and
applicants that were funded.

Scoring Equations

       Earlier in this report we reviewed the type of information COPS
collected, evaluated, and scored in order to select the CHRP grantees. We
concluded that the design of the CHRP application and the data collected to
evaluate an applicant’s condition related to fiscal condition, crime, and
community policing plans were reasonable. However, we also noted that
there were problems in some of the formulas COPS used to calculate some
of the fiscal health indicators of applicants. As described earlier, 50 of the
100 points used to grade CHRP applicants were based on the applicants’
individual economic and fiscal conditions. In general, applicants in the worst
economic and fiscal situations were to receive more points relative to other
applicants.

       The 50 points for economic and fiscal conditions were based on
applicant responses to 12 questions. The number of points applicants
received for most of these questions were based on how their responses
compared to the responses from other applicants. For example, the CHRP
applicants provided COPS with the percentage of families living in poverty in
their jurisdictions, and COPS ranked the applicants according to these
poverty rates from lowest to highest. COPS then pro-rated points among
the applicants according to this ranking.

      In the previous example, COPS pro-rated points among applicants by
ranking the data provided by the applicants. However, for four questions
the rankings were based on values calculated by COPS using two or more
pieces of data provided by the applicants.32 For example, to rank and score
changes to applicants’ budgets, COPS calculated scores that measured the


       32
           The data used for the calculations were: (1) the law enforcement agency’s total
operating budget for the current and previous 2 fiscal years, (2) the total jurisdictional
operating budget for the current and previous 2 fiscal years, (3) the total jurisdictional
locally generated revenues for the current and previous 2 fiscal years, and (4) the total
jurisdictional general fund balance for the current and previous 2 fiscal years.


                                            21 

rate of change in applicant budgets using budget values for FYs 2007, 2008,
and 2009 provided by the applicants.

      However, when we reviewed the formulas COPS used to calculate the
rates of change, we found that the formulas contained two inaccuracies,
which prevented COPS from accurately assessing the economic condition for
CHRP applicants.33 Because economic conditions were the prime factor for
ranking applicants, the impact on applicants and grantees that were
negatively affected by the inaccuracies lessened the likelihood of awards to
these applicants, which was inconsistent with the objectives of the program.

       The first inaccuracy in the formulas was that decreases from one year
to the next year were effectively capped at 100 percent, while there were no
limits to increases. As a result, these formulas had the effect of creating two
different scales, one for measuring increases and another for measuring
decreases. The second inaccuracy occurred when COPS addressed situations
where applicant data used in some formulas required dividing by zero. To
address this issue, COPS established protocols providing the same score for
all applicants under similar situations. We determined that the inaccuracies
with the formulas affected the scoring of four questions that examined the
fiscal health of applicants, thereby causing COPS to inaccurately assess
applicants’ economic condition.

      We also determined it was likely that if the formulas were corrected
and the affected questions rescored, the results of the applicant rankings
would change, with some applicants receiving higher scores and other
applicants receiving lower scores to the point where some grant recipients
should not have received grants based on their scores.

      We discussed these issues with COPS officials, who generally agreed
with our analysis and informed us they would correct the inaccurate
formulas before using them again in the future. They asserted that they
believed the impact on the CHRP selection process was insignificant.
However, we asked COPS to run a corrected formula, rescore the 4
questions for all 7,203 applicants, and create a revised list of grantees.

     In response, COPS rescored the CHRP applicants using revised
formulas that corrected the inaccuracies we identified. The following table
summarizes the agencies affected by the inaccurate formulas, as identified
through the rescoring.




      33
           Appendix II provides a technical description of these inaccuracies.


                                              22 

                     Effects of Inaccurate Scoring Formulas
                       on CHRP Applicants and Grantees34

  Number of
   Agencies           Number of           Amount of
   Affected            Officers            Funds                         Notes
40 AGENCIES NEGATIVELY AFFECTED:
                                                             These applicants did not receive
                                                             CHRP grants, but should have.
                                                             Most served small populations.
34 Applicants              68              $ 12,586,237
                                                             These agencies received CHRP
                                                             grants, but received fewer
                                                             positions than they should have.
                                                             Most agencies were denied 1-2
                                                             officers. One large agency was
6 Grantees35               20               $ 3,523,790      denied 13 officers.


TOTALS                     88              $ 16,110,027
51 AGENCIES POSITIVELY AFFECTED:
                                                             These grantees received CHRP
                                                             grants, but should not have.
45 Grantees                74              $ 14,647,267      Most served small populations
                                                             These agencies received CHRP
                                                             grants, but received more
                                                             positions than they should have.
                                                             These agencies received an
6 Grantees                  8               $ 1,773,373      additional 1-2 officers.


TOTALS                 82            $16,420,640
         Source: OIG Analysis of COPS data

         The complete lists of grantees affected by the rescoring are included in
  this report as Appendix III.

        While the effect on the number of CHRP grants awarded in July 2009
  was relatively small, both in the number of grants and the funding affected
  in comparison to the total funding awarding by COPS, it nevertheless had an
  impact on those applicants who should have received grants but did not, and

         34
           The numbers and dollar amounts of positively and negatively affected applicants
  and grantees do not equate due to differences in officer salaries between jurisdictions.
         35
            This does not include one grantee that according to COPS was awarded a grant
  after another grantee withdrew.


                                             23 

on those grantees who received fewer officer positions than they should
have. We therefore recommended that COPS provide a remedy for those
grantees negatively affected by the inaccurate scoring.

       In its response to our finding, COPS has proposed to remedy the
negatively affected applicants and grantees by applying the revised scoring
formulas to the CHRP application list and incorporating additional steps into
its grantee selection process for its $298 million COPS Hiring Program (CHP)
in FY 2010. COPS intends to select grantees for the FY 2010 program from
the existing pool of agencies that applied for, but did not receive, CHRP
funding.36 COPS plans to ask these agencies to update their applications
and it will score them again according to the CHRP methodology, including
the corrections to the inaccurate formulas we identified in this audit. If the
unfunded and underfunded CHRP agencies are not selected for FY 2010
grants based on their scores, COPS will intervene to ensure these agencies
are provided funding.

      We believe this is a reasonable approach, given the effects of COPS’
original inaccurate formulas, and we plan to monitor how it is implemented.

Data Cleaning

       The scores COPS assigned to the data agencies submitted in their
applications served as the basis for selecting CHRP grantees. Therefore, the
validity of the data submitted by CHRP applicants was critical to the grantee
selection process. The CHRP application required applicants to provide
information on 164 data elements, with specific data elements that covered
the 3 aspects of an agency’s scores – economic condition, crime, and
community policing strategies implemented. COPS used 32 data elements
from the CHRP application to assign 50 percent of an agency’s overall score
related to fiscal health and 21 data elements related to crime and
community policing to calculate the remaining 50 percent of the score.37

      Having received 7,272 CHRP applications, it was necessary for COPS to
manage over 350,000 data elements that were scored in addition to general
application information. In our opinion, COPS faced a significant challenge in
ensuring in a timely manner that the submitted data was free from errors
that could affect the selection of grantees. For most of the data elements

        36
            According to COPS, there are 15 agencies that received a CHRP grant but are still
eligible to receive a FY 2010 hiring grant because their awards were limited by the
application of the state minimum or population split requirements.
        37
             See Appendix V for the CHRP application attachment that was used to collect this
data.


                                               24 

used to score CHRP applicants, such as agency budget information and
layoffs, the agency itself was the only source of the data. Verifying all of
this data would have required contacting each of the 7,272 applicants for
supporting documentation. We do not consider this to have been a practical
option given the time constraints and COPS staffing resources.

       Rather than attempting to validate data from all or a sample of
applicants, COPS developed a set of outlier queries, or searches of the
application data against baselines, to identify information that exceeded
certain parameters in the fiscal health and crime areas, as well as some
general information, such as population. When these outlier queries
identified potentially flawed data, COPS staff followed up directly with
applicants.

      According to COPS, the initial round of the CHRP data cleaning process
included reviewing 39 of the 164 data fields of the CHRP application for all
7,272 agencies that applied, or 283,608 individual data values. From this
review, COPS identified 2,864 data values in 1,709 applications that fell
outside the outlier queries related to each field and were flagged for review.
In two additional rounds of data cleaning, COPS identified another 2,942
data values that were examined, but these were generally unrelated to
agency scores.

       We reviewed the outlier queries COPS used for the general information
and fiscal health data and found them to be reasonable. However, we found
a weakness in the outlier queries COPS used to assess the crime data
submitted by applicants. Specifically, because the crime data outlier queries
were based on the number of crimes rather than rates of crime within a
jurisdiction’s population, it was possible that inaccurately high crime data
could be submitted by applicants without being flagged for follow-up by
COPS’ outlier queries. This information could have inflated an applicant’s
scoring and ranking by COPS. The following table shows the outlier queries
COPS used to flag potentially flawed data.




                                      25 

                  CHRP Outlier Queries for Crime Data

                               Applicants with      Applicants with
                              Population Served    Population Served
       Crime Category           of < 150,000         of > 150,000
       Criminal Homicide            > 100                > 500
       Forcible Rape                > 150               > 1,000
       Robbery                     > 1,000             > 15,000
       Aggravated Assault          > 2,000             > 20,000
       Burglary                    > 3,000             > 30,000
       Larceny                     > 6,500            > 100,000
       Motor Vehicle Theft         > 2,500             > 25,000
       Source: COPS

       When we reviewed the crime rates of the CHRP grant recipient
applications, we identified several grantees serving relatively small
populations that included unusually high crime rates, but were still under the
threshold of the outlier queries for those particular crimes. A few examples
are a town with a population of 426 that reported 43 homicides during 2008,
a village with a population of 1,500 that reported it had 557 larcenies
committed in 2008, and a university that reported it had 478 burglaries
committed in a population of 2,500 in 2008.

      When we discussed this with COPS officials, they told us that they
were aware of the weakness of using the outlier queries that relied on the
number of crimes rather than crime rates when they completed the CHRP
data cleaning. They said they did not base the crime data outlier queries on
rates due to the exceedingly short time-frame demanded by the CHRP
timeline and the capabilities of the COPS Information Technology (IT) staff in
creating other queries. In addition, COPS told us that although the CHRP
applicants provided crime data as reported to the Federal Bureau of
Investigation (FBI) for the 2008 Uniform Crime Report (UCR), COPS was not
able to use the FBI data to verify information submitted by applicants for
two reasons. First, the FBI did not issue the full 2008 UCR publicly until
after COPS completed its data cleaning, and second, many CHRP applicants
were not required to report to the FBI for the UCR.

      To gauge the extent of the potential problems caused by using outlier
queries for crime statistics based on the actual number of crimes rather than
crime rates, we asked COPS about the crime figures of 29 CHRP grant
recipients that we judgmentally selected from the 1,046 grant recipients.
We asked COPS to tell us what, if any, verification they had done prior to
awarding these 29 agencies a CHRP grant, and to give us COPS’ assessment


                                     26 

of the potential impact any overstatement of the number of crimes would
have had on their scores and chances of being awarded a grant. COPS
reviewed the crime data of the 29 agencies and used the 2008 UCR data,
where available, to verify the data submitted by the applicants. The
following table summarizes COPS’ evaluation of the 29 CHRP grantees.

      COPS’ Evaluation of Crime Data from 29 CHRP Grantees

                                                         Potential Effect
     Number
                   Description of the Categories COPS       on Score
        of
                      Created to Group Agencies           According to
     Agencies
                                                             COPS
                  Two verified pre-award, six verified
                  with UCR for this review, and one is
         9                                                    None
                    summer resort so population is
                              misleading
         5       Compared to UCR data for this review       Minimal

         7                  No UCR data available           Minimal
                   Compared to UCR for this review,
         3          seven of seven crime categories        Significant
                              overstated
                    No UCR data available, seven of
         5                                                 Significant
                   seven crime categories overstated
       Total
        29
             Source: COPS

      As the table indicates, the COPS pre-award data cleaning identified
and confirmed with the agency the crime data submitted by 2 of the 29
agencies we judgmentally selected. Thirteen of these 29 agencies did not
report for the UCR in 2008, so there was no data for comparison in this
review. In addition, COPS identified 8 of the 29 agencies as submitting
crime data that was possibly overstated to the point it was likely to have had
a significant change in their overall score had there been additional data
cleaning checks on the crime data. COPS also identified another 12 agencies
whose crime data in 1 or 2 of the 7 categories was likely incorrect but with
only a minimal effect on its overall score - 5 to 10 percent. For the
remaining nine agencies, COPS determined there was no effect.

     Because our evaluation of the flawed fiscal scoring formulas
demonstrated that very small changes in applicant scores resulted in
changes to the group of agencies that received awards, we do not believe


                                        27 

that 5 to 10 percent changes are minimal. Although COPS identified 8
grantees whose scores were potentially overstated due to inflated crime
data, and we believe that the scores of another 12 of the 29 grantees had
the potential to affect the selection of those agencies that received awards,
we recognize it would be time consuming and impractical to apply a revised
data cleaning protocol to identify and correct every applicant with inflated
crime data and re-score all 7,203 applications. However, COPS agreed that
the outlier queries it used for CHRP could have been better designed and
more improved queries for crime data, based on rates per population, will be
used in the future. In addition, because 5 of the 29 grantees we asked
COPS to review were law enforcement agencies for educational institutions,
COPS told us it plans to develop separate queries to ensure that these types
of agencies are actually reporting crime on campus and not crime in the
surrounding jurisdiction.

      We agree with the improvements COPS plans to make to its crime data
cleaning procedures and believe this should enhance the integrity of grantee
selection in future grant programs.

Data Integrity

      COPS developed a web-based system to receive CHRP applications
that was made available to agencies from March 16, 2009, to April 14, 2009.
The information for all 7,272 CHRP applications was managed in a computer-
based database, and COPS continually updated the information based on the
results of its data cleaning and other reviews.

      COPS provided us with the initial and final versions of this database.
The initial version reflected the CHRP application data before COPS made
any changes, and the final version reflected the applicant data that was used
for scoring and the grantee selection process. In total, we determined COPS
made 2,588 changes to scored data fields related to 979 CHRP applicants
based upon its data cleaning and other reviews.

       Because changes made by COPS to the data submitted by applicants
could significantly affect their scores and chances of obtaining a grant, we
sought to determine whether COPS was justified and correct in making
changes to the initial version of the database. We began this process by
selecting a relatively small sample of 30 changes between the initial and
final versions of the database. We then asked COPS to provide
documentation or system information to support these changes. Because
COPS had no single system to track the justifications for every change,
COPS provided us with various types of support, including information on



                                      28 

phone conversations, e-mails from the applicant, and other information from
the COPS grantee database.

      We found that all 30 changes COPS made to the CHRP applicant
database were justified and correct, and we determined more extensive
testing was not warranted. However, although we did not identify any
unsupported changes to the database, we are concerned that COPS does not
have a system to track and justify changes to applicant data to enhance
internal control and enhance transparency.

      COPS officials agreed with our concerns and indicated that it was
working to complete a system that would both actively monitor the
information being entered into an application and limit applicant inputs to
prevent inaccurate data from being entered into an application. Additionally,
this would dramatically reduce the number of changes required by COPS.
We agree with COPS’ intention to prevent or deter applicants from
submitting faulty data and cut down on the number of changes required
from COPS; however, we still believe COPS should have in place a system to
track its changes to applicant data.

Vetting CHRP Grantees

      COPS’ vetting procedures are intended to help COPS identify and avoid
granting funds to agencies that may place grant funding at risk or have
other negative effects on COPS’ operations. In the advice we issued to
COPS in June 2009, we asked COPS to consider making changes to these
procedures to improve its ability to identify high-risk grantees.

      The COPS Legal Division has grantee vetting responsibilities, which
include circulating lists of potential grantees to U.S. Attorneys’ Offices, the
Department of Justice (DOJ) Civil Rights Division, Criminal Division, and
Public Integrity Section, as well as the OIG Investigations Division, and the
Office of Justice Programs (OJP) Office of Civil Rights. These offices are
asked for any reasons it would be inappropriate or inadvisable for COPS to
award a grant to an agency on the list. In May 2009, prior to scoring the
CHRP applications, COPS circulated the listing of all 7,272 CHRP applicants
to these vetting offices.

      In response, these offices informed COPS of concerns related to a total
of 20 CHRP applicants. We reviewed this feedback and determined COPS
took this information into consideration when selecting and awarding CHRP
grants. Specifically, COPS excluded from consideration 8 of those 20 CHRP
applicants, and of the remaining 12 applicants that were scored only 4
received grants.


                                       29 

       In the report and memorandum we issued in June 2009, we also
advised COPS that the offices reviewing the vetting lists may benefit from
having a more detailed understanding of COPS’ expectations regarding the
office’s screening of grant applicants. In its response, COPS stated that it
would provide reviewers with Frequently Asked Questions (FAQs) during the
process pertaining to vetting instructions on its website. Although the CHRP
vetting was completed before our report was issued, we reviewed these
FAQs and found they addressed our concerns.

      Also in our June memorandum, we advised COPS that we believed it
was missing out on potentially important information regarding applicants
and grantees at other DOJ grant making components. In its response, COPS
stated that it had begun exchanging information on high risk grantees and
were reviewing OJP’s information as part of the CHRP vetting process.

      We determined that COPS reviewed the OJP high-risk grantee list from
March 2009 for its CHRP vetting process. This list included 27 CHRP
applicants. None of the CHRP applicants on the OJP list were excluded from
consideration, nor were the awardees given special conditions regarding the
use of CHRP funds. We further determined that COPS later awarded CHRP
grants to 9 of the 135 agencies on the OJP high-risk list.

      We also determined that during the CHRP grantee selection period,
there were 27 agencies on the COPS “bar list.” Of these 27 agencies, 5
former COPS grantees applied for CHRP funding. The majority of these
grantees were placed on the bar list as part of an agreement to resolve and
close longstanding audit findings identified through OIG grant audits. We
determined none of the agencies on the COPS bar list were provided CHRP
funding.

        COPS told us that it did not exclude the agencies on the OJP high-risk
list from consideration or attach conditions to their grants because the
information from OJP was not entirely helpful. COPS officials stated that it
was initially unable to determine why agencies were assigned to the OJP
high-risk list and what the appropriate response from COPS might entail.
COPS also told us that OJP later clarified that most of the grantees on the
OJP high-risk list were placed there because they have audit reports that
have been open for more than one year or were the subject of a previous
OIG investigation where corrective action is needed to prevent future
occurrences of mismanagement of grant funds.

      OJP shared with COPS a set of 14 high-risk special conditions that it
uses for OJP high-risk grantees. When we reviewed the OJP high-risk special
conditions with COPS, we found that there were some conditions used by


                                      30 

OJP that have no COPS equivalent. COPS told us it typically will not provide
funding to agencies it considers high risk, so the use of high-risk special
conditions was unnecessary. However, we believe that there should be a
consistent methodology for identifying and taking action on high-risk
applicants and grantees among the agencies within the Department.

      When we discussed the issue of the high-risk list with COPS at the
conclusion of our audit, COPS officials told us they had taken additional
steps to coordinate with OJP, including the development of a system that
integrates the COPS and OJP approaches to identifying high-risk grantees.
We recommend that COPS continue to work with OJP to develop a consistent
methodology for identifying and acting on high-risk applicants and grantees.

      COPS vetting procedures also include circulating the list of potential
grantees among the various COPS divisions, including the Grants
Administration Division and Grants Monitoring Division. For CHRP, this
internal vetting identified eight agencies that should not receive grants or
only receive grants with special conditions attached. We also determined
COPS used the CHRP application to exclude one agency for consideration for
CHRP funding because that agency was delinquent on its federal debt.38

      In addition, we also noted that 12 agencies withdrew their applications
from consideration before COPS announced the grantees that were selected.
Many of these agencies withdrew their applications based on concerns
related to their ability to retain their officers for one year beyond the end of
the grant as required.39 The following table summarizes the reasons why
agencies were excluded from consideration for CHRP funds.




       38
           Federal debt issues are self-disclosed by applicants on the SF-424 – Application
for Federal Assistance. COPS told us this agency correctly answered “yes” to question 20 of
this form, which, according to the COPS Legal Division, requires COPS by law to exclude the
applicant from consideration.
       39
            See Appendix IV for listing of CHRP applicants that withdrew their applications.


                                               31 

                  Summary of Agencies Excluded From 

                       CHRP Consideration due to 

                  Vetting Procedures or Other Reasons 


                                                          Number
         Reason for Exclusion                           of Agencies
         Vetting Process (External / COPS Legal)             8
         OJP High-Risk List                                  0
         Vetting Process (Internal and COPS Bar
         List)                                               8
         Federal Debt                                        1
         Withdrawals                                        12
                                            Totals          29
            Source: OIG analysis of COPS data

      Finally, as stated in our June 2009 memorandum to COPS, we believe
that grantee compliance could be improved by collecting from grantees more
information specific to how funds will be managed and by requiring high-risk
grantees to demonstrate that they understand key grant-related
responsibilities. We noted COPS may benefit from collecting more
information on a grantee’s accounting system before making its award
decisions, thereby enhancing opportunities to identify high-risk grantees. In
response to our report COPS did not comment on these specific topics. We
continue to emphasize the benefit of collecting more information that will
help identify high-risk grantees.

Potential Overlap with Other Recovery Act Programs

      In our June 2009 memorandum to COPS, we identified the potential
overlap between COPS’ CHRP and two grant programs administered by the
Bureau of Justice Assistance (BJA) within the Office of Justice Programs
(OJP) - the Edward Byrne Memorial Justice Assistance Grant (JAG) Formula
Program and the Edward Byrne Competitive Grant Program. To ensure
COPS’ decisions regarding grantee selection were appropriate and
reasonable considering similar funding already provided to these grantees,
we suggested that COPS should coordinate closely with BJA on grantee
selection decisions. COPS agreed with our suggestion and stated that it had
been working with OJP and BJA regarding the CHRP objectives, funding
methodology, and rollout plans.

        In addition, COPS told us that it provided BJA with a list of the CHRP
grantees so that BJA would be aware of any agencies receiving grants under
CHRP. We subsequently followed up with BJA to understand how it used the
list of grantees provided by COPS. BJA told us that it used the list of 1,046


                                        32 

CHRP grantees to identify 9 agencies applying for BJA grants as well. After
considering the CHRP funding already provided to these nine agencies, BJA
told us it determined the requests from eight of these agencies were
reasonable. However, BJA told us it did work with the remaining agency to
reduce that agency’s BJA request in light of the CHRP funding already
provided.

     We believe COPS’ continued work with OJP and BJA over the life of the
CHRP grants and future awarding decisions could improve grant
management and result in more informed award decisions.

Ensuring Compliance with Retention Requirement

      As we described earlier in this report, COPS designed the CHRP
grantee selection process to provide grants to agencies facing the more
severe economic circumstances. COPS also required CHRP grantees to
demonstrate an increase in the number of sworn officer positions serving the
community by retaining grant-funded officers for at least 12 months beyond
the end of the CHRP grant.

       In our June 2009 memorandum to COPS, we expressed concerns that
some grantees receiving funding could be at a greater risk of failing to meet
their retention requirements due to their poor fiscal condition. We
encouraged COPS to increase the identification of those potential grantees
that are at the greatest risk of noncompliance with retention requirements,
such as entities that do not have a substantive retention plan, or whose
retention plan relies on funding sources that may not fully support the cost
of retained officers. We also advised that COPS closely monitor the
economic situation of high-risk grantees throughout the life of the grant and
be prepared to periodically assist with guidance on program implementation,
conduct site visits, or take other appropriate action should it become
apparent that recipients will not be able to meet the retention requirement.

      In its response to our memorandum, COPS described its review of the
information submitted by CHRP applicants and the information COPS was
providing to these agencies on the retention issue. COPS also described how
annual progress reports would solicit agencies to self-report problems in the
retention issue.

      In addition, COPS officials described for us its exemption policy
regarding the retention requirement. This policy allows severely fiscally-
distressed grantees to request waivers of the retention requirement and
under the policy COPS can grant these waivers when necessary.



                                     33 

       Although we agree that the actions COPS outlined are important, we
believe COPS can enhance compliance with the retention requirement by
concentrating on certain agencies using data provided in the CHRP
application. For example, six agencies that were awarded CHRP grants
indicated in their applications that they were either bankrupt or in
receivership.40 We believe COPS should consider using this fiscal
information to identify grantees that are at a greater risk of failing to meet
their retention requirements. COPS should then ensure the retention plans
of those grantees are revisited and closely monitored during the life of the
grants to provide COPS and the grantees time to develop options for
avoiding noncompliance.

Ensuring Timely Implementation of Programs

       In our June 2009 memorandum, we concluded that the amount of time
COPS planned for the process of selecting CHRP grantees was reasonable
given the large numbers of applicants, the large amount of information
collected from each applicant, and the related technical challenges. By
announcing the CHRP award recipients by the end of July 2009 – or just 5
months following enactment of the Recovery Act – COPS met its timeline
and we continue to believe this to be timely award implementation.

       In the June 2009 memorandum we also informed COPS of our
concerns related to timeliness on the part of CHRP grantees. We outlined
the many factors that can delay the hiring of police officers at the local or
state level, including recruiting, training, and other budgetary issues. Due to
these concerns and the need for timely grant expenditures to meet the
economic goals of the Recovery Act, we suggested that COPS consider
changing its policies so that it no longer routinely approves grant extensions,
or extensions of time to complete a recipient’s grant objectives, for CHRP
grantees and that it alert CHRP grantees to this change in policy.

      In response, COPS described the information included in the CHRP
grant owner’s manual that reminds grantees that grant extensions will only
be granted with reasonable justifications. COPS officials also stated that
COPS was planning to use its web-based training system, CHRP eLearn
Center, to distribute documents that could help grantees avoid common
delays in hiring officers.

        Finally, COPS told us it would evaluate overall grantee progress in
filling CHRP officer positions and consider revising its extension policy.
       40
           A law enforcement agency is in receivership when a court or higher legislative
authority, such as a state, determines that another entity must be given custodial
responsibilities of the agency.


                                             34 

When we followed up with COPS for this report, COPS officials stated that no
changes were made to the extension policy yet, but reducing the use of
“automatic” extensions was being considered, if determined appropriate.
Additionally, COPS stated that requiring more detailed written justifications
for any extension granted were also being considered, with the merits of
each request reviewed to ensure that the needs of the community are
balanced against the purposes of the Recovery Act.

      COPS officials also told us that the COPS Finance staff will evaluate
quarterly financial status reports received from grantees and perform regular
analyses of the drawdown data to ensure that grantees are expending grant
funds on a timely basis.

Allowing OJP Remote Access to Grant Documentation

      In our June 2009 report, we suggested that COPS allow OJP remote
access to COPS’ grantee information database for monitoring. As we
described in that report, most of the data COPS maintains regarding its
grantees, including CHRP award recipients, is maintained in a database
called the COPS Management System (CMS). Although CMS is primarily
accessed by COPS staff located in COPS headquarters and it is not a web
based system, it is possible to access CMS remotely.

      When we first suggested that the Office of Justice Programs’ Office of
Audit, Assessment, and Management (OAAM) and Office of the Chief
Financial Officer (OCFO) should have remote access to CMS because of their
oversight and monitoring responsibilities for COPS grantees, COPS stated
that off-site access to the COPS Management System is only possible by
using a COPS-issued laptop and a secure remote connection.41 Further,
COPS officials stated that responses were made to OJP’s requests for
information by providing customized hardcopy reports in a timely manner.

      OAAM and OCFO officials told us that they would prefer remote access
to CMS as this would be of greater assistance in carrying out monitoring and
program assessment responsibilities. Because we strongly believe that
oversight agencies should have direct, instant, and complete access to grant
information, which is not provided using the current system that relies on
hard copies of documents, we continue to encourage COPS to consider
providing its OJP partners with the necessary access to CMS remotely.

       41
          OJP’s OAAM and OCFO also have responsibilities related to COPS grantee
monitoring and often require information from the COPS Management System. OCFO
completes financial related site visits and compliance reviews. OAAM provides leadership
and oversight for OJP and COPS program monitoring efforts. 



                                            35 

Ensuring Transparency of Funding

      In our June 2009 memorandum, we brought to COPS’ attention the
aspects of transparency we believed were most significant to the CHRP grant
program. One aspect was the importance of informing all CHRP applicants
why their application was either funded or not funded. Although not
specifically required by the Recovery Act, we believe this type of information
should be disclosed to the public whenever possible.

      Subsequent to this memorandum and following the announcement of
the CHRP award recipients on July 28, 2009, COPS made available to the
public a significant amount of information regarding the selection of the
CHRP grantees. Specifically, COPS created the CHRP Announcement Toolkit,
a webpage on its internet site dedicated to providing additional information
on how the CHRP application was created, reviewed, and how the final
awardees were selected. COPS also included the final award list; CHRP
applicant rankings by state; state summary sheets that included the number
of agencies that applied and were awarded, dollars requested and awarded,
and a list of agencies awarded; frequently asked questions; and the methods
used to develop and evaluate CHRP applications.

      We reviewed the information COPS made public regarding CHRP
following the announcement of the award recipients and determined it was
accurate and useful. However, COPS chose not to disclose key elements of
the CHRP grantee selection methodology such as the number of points
assigned to the data submitted in the applications. COPS told us this type of
detailed information was not made public because part or all of the
methodology may be used again in the future, and it may be possible for
some future applicants to gain an unfair advantage by misusing this
information.

     Based on our review of the documents described, we believe that
COPS took reasonable actions and met its responsibilities related to the
aspects of transparency we raised in our memorandum.

Grantee Training

      In our June 2009 report, we expressed our belief that many COPS
grantees who failed to comply with administrative requirements did so either
because they misinterpreted grant requirements or were never aware of
them. As a means to improve grantees’ understanding and compliance with
terms and conditions of the CHRP award, we advised COPS to consider
developing recurring and mandatory training programs for all grantees, but
especially those who could be considered high risk of non-compliance for


                                     36 

certain requirements. We also suggested to COPS that it consider using
Internet-based methods to deliver this training in a cost effective manner.

      COPS generally agreed with our suggestions regarding training and
told us in June 2009 that it was establishing a CHRP “eLearn Center” to
deliver both grants management training and community policing training to
grantee agencies. The eLearn Center is an Internet based training tool for
COPS grantees, developed in partnership with the Virginia Center for Policing
Innovation, which offers online courses that guide agencies through the
details of managing their grants from the time they accept an award to final
grant close-out. Additional eLearn Center features include guides that show
grantees how to request grant funding, maintain financial records, and meet
the other terms and conditions of the CHRP grants.

       In early December 2009, COPS activated the eLearn Center and
invited all CHRP grantees to visit the website. We found the materials on
the website to be well organized and comprehensive. However, because
visiting the website and taking the courses is completely voluntary, we are
concerned that some grantees that would benefit most from these materials
will choose not to do so.

      COPS informed us that it is considering the possibility of using the
eLearn Center, after an initial evaluation, for either mandatory training or
specific training tailored to high-risk grantees.

       Based on our review of the eLearn Center, we believe COPS has made
significant improvements to its grantee training capability. We also continue
to encourage COPS to consider making grantee participation mandatory and
requiring grantees to demonstrate their understanding of the material
through testing.

Conclusion

      We found that COPS issued $1 billion in CHRP grant funds in a timely
and transparent manner. COPS received 7,272 applications for grant funds
and granted funding to 1,046 recipients.

       We concluded that, in general, COPS relied on merit-based decision
making to select CHRP grantees in a manner consistent with the other
significant requirements established for the Recovery Act. COPS also met
the major allocation requirements related to COPS grants for hiring police
officers.




                                      37 

       However, we identified inaccuracies in some formulas that COPS used
to award the CHRP grants. These inaccuracies resulted in 34 applicants that
did not receive grants but should have, 6 grantees that received fewer
officer positions than they should have, 45 grantees that should not have
received grants, and 6 grantees that received more officer positions than
they should have.

      In addition, from our analysis of COPS validation and management of
data submitted by applicants for Recovery Act funding, we identified two
areas for improvement. The first relates to potentially overstated data that
may have affected the selection of Recovery Act recipients. The second
involves a weak system for tracking changes to data and ensuring data
integrity.

      Finally, we reviewed concerns we previously brought to COPS attention
regarding grant administration in general and Recovery Act grants
specifically. These issues relate to information sharing with OJP, grantee
evaluation and training, and meeting other requirements related to the
Recovery Act. Although COPS has addressed some of these concerns, we
believe there are still areas in need of improvement.

Recommendations
     We recommend that COPS:

     1. Implement a remedy for agencies that were negatively affected by
        the inaccurate formulas used in developing the scores and ranks of
        CHRP applicants. 

     2. Replace the outlier queries for future grant programs to better
        identify potentially inaccurate data submitted by grant applicants. 

     3. Develop and implement a system to track significant changes made
        during the application process to applicant information. 

     4. Work with OJP to avoid duplication of future grant funding.

     5. Provide OJP additional access to grant management documentation,
        such as through direct access of CMS.




                                     38 

6. Consult with OJP to develop a consistent methodology for
   identifying and managing high-risk grant applicants and awardees.

7. Encourage CHRP grantees to participate in grant management
   training and consider evaluating grantees’ understanding of the
   material through testing.




                               39 

                 STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the COPS Hiring and Recovery
Program, we considered the COPS’ internal controls for the purpose of
determining our audit procedures. This evaluation was not made for the
purpose of providing assurance on the internal control structure as a whole.
However, we noted certain matters that we consider to be reportable
conditions under the Government Auditing Standards.

      Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the internal control
structure that, in our judgment, could adversely affect the COPS’ ability to
manage CHRP.

       As discussed in the Findings and Recommendations section of this
report, we have concerns related to how well COPS tracked changes to the
data it collected from applicants during the scoring and ranking process. To
address this deficiency we recommended that COPS develop and implement
a system to more efficiently track changes to data sets when a significant
number of changes are necessary as was the case with the CHRP applicant
data. 

      Because we are not expressing an opinion on the COPS’ internal
control structure as a whole, this statement is intended solely for the
information and use of the COPS in administering CHRP. This restriction is
not intended to limit the distribution of this report, which is a matter of
public record.




                                      40 

    STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

      This audit evaluated COPS management of the CHRP grant program
through the grantee selection period. In connection with the audit, as
required by the Government Auditing Standards, we reviewed management
processes and records to obtain reasonable assurance that COPS’
compliance with laws and regulations that, if not complied with, in our
judgment, could have a material effect on COPS operations. Compliance
with laws and regulations applicable to the COPS management of CHRP is
the responsibility of COPS management.

      Our audit included examining, on a test basis, evidence about laws and
regulations. The specific laws and regulations against which we conducted
our tests are contained in the relevant portions of:

   	 Pub.L No. 111-5, The American Recovery and Reinvestment Act of
      2009

   	 42 U.S.C. § 3793(a)(11)(b) (2008)

   	 42 U.S.C. § 3796 dd(f) (2008)

   	 Executive Memorandum for Heads of Executive Departments and 

      Agencies: Ensuring Responsible Spending of Recovery Act Funds, 

      March 20, 2009 


   	 OMB Memorandum M-09-16, Interim Guidance Regarding
      Communications with Registered Lobbyists About Recovery Act Funds

   	 OMB Memorandum M-09-10, Initial Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009

   	 OMB Memorandum M-09-15, Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009.

      Except for the instances of non-compliance identified in our audit, we
did not identify any areas where COPS was not in compliance with the laws
and regulations referred to above. With respect to activities that were not
tested, nothing came to our attention that caused us to believe that COPS
management was not in compliance with the laws and regulations cited
above.




                                      41 

                                                                APPENDIX I 



               OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of this audit were to: (1) evaluate COPS compliance
with relevant statutes and executive directives in its design and
implementation of CHRP, (2) evaluate the reasonableness of criteria COPS
established for CHRP, (3) review technical aspects of the CHRP grantee
selection process, and (4) follow up on previous OIG concerns reported to
COPS.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      We conducted work at the COPS’ headquarters in Washington, D.C.
Generally speaking, the scope of this audit covered the entire CHRP grantee
selection period beginning with the enactment of the Recovery Act on
February 17, 2009, through December 2009.

      To perform our audit, we interviewed COPS officials and analyzed
documents and data from both COPS and CHRP applicants. Where
appropriate we compared results of actions taken by COPS with applicable
statutes and executive directives. As described in the report, we completed
limited testing of the integrity of the data COPS used to select grantees. We
also reviewed the original and revised scoring and ranking processes used to
select CHRP grantees.

      To complete our analysis of previously identified concerns related to
matters of grantee administration common to COPS and OJP, we obtained
information from OJP officials directly as necessary.




                                     42 

                                                                APPENDIX II 



             TECHNICAL REVIEW OF FORMULAS USED IN THE 

                 GRANTEE SELECTION METHODOLOGY


       Our technical review of the formulas COPS used to calculate the
measures of average rates of change for the scoring of some applicants
identified two inaccuracies. To illustrate these inaccuracies, the formulas
used by COPS to measure applicant fiscal health are presented through
numeric examples below. Our illustration only includes the formula COPS
used for the jurisdictional balance indicator metric. However, because COPS
used similar formulas for the other indicator metrics, the inaccuracies
present in the jurisdictional balance indicator metric are identical to the
other formulas for the other indicator metrics.

      The formulas for the jurisdictional balance indicator COPS used
computed the percentage rate of change from FY 2007 to FY 2008 and the
percentage rate of change from FY 2008 to FY 2009 and then took the
average percentage rate of change. The rate of change from FY 2007 to
FY 2008 is named Change1 and of the rate of change from the FY 2008 to FY
2009 is named Change2. Therefore, the formulas COPS used were as
follows:

             FY 08 Jurisdictional Balance  FY 07 Jurisdictional Balance
Change1                                                                 *100
                             FY 07 Jurisdictional Balance

             FY 09 Jurisdictional Balance  FY 08 Jurisdictional Balance
Change 2                                                                *100
                             FY 08 Jurisdictional Balance

AverageChange  (Change 1  Change 2) / 2

       The first inaccuracy in these formulas was that, when the jurisdictional
balance is decreased from one year to the next, the rate of decrease is never
less than -100% as the denominator is always larger than the difference.
On the other hand, when the jurisdictional balance has increased from one
year to the next, the rate of increase can go to any high value without limit,
as the denominator could be less than the difference. This shows that the
metric measuring any decrease was on one scale while the metric measuring
any increase was on a different scale. Therefore, the average change was
an inaccurate measure of the indicator. We illustrate this point in the
following example:




                                       43 

         For two applicants, Applicant A and Applicant B, assume the three
  fiscal year’s 2007, 2008, and 2009 jurisdictional balance data is given as in
  Table 1.

  Table 1: Jurisdictional Balance of two Applicants in FYs 2007, 2008,
  and 2009

    Applicant       FY 2007          FY 2008              FY 2009
  Applicant A         100               96                   92
  Applicant B         100               2                    10

  Using COPS’ formulas as described above, jurisdictional balance change 1,
  change 2, and average change computations are provided in Table 2.

  Table 2: FY 2007 to FY 2009 Rate of Change of Jurisdictional Balance

                           Percentage Rate of Change
 Applicant        Change 1           Change 2         Average Rate of Change
Applicant A   (96-100)/100=-4% (92-96)/96 = -4.2%    (-4%+(-4.2%))/2= -4.1%
Applicant B   (2-100)/100=-98% (10-2)/2=400%         (-98%+400%)/2=+151%


        The calculations show that Applicant A has an average rate of change
  measure of -4.1% while Applicant B has an average rate of change measure
  of +151%, indicating that Applicant A is in poorer fiscal condition than
  Applicant B. Consequently, the COPS algorithm gives Applicant A a higher
  score than Applicant B. However, the jurisdictional balance of Applicant B
  was reduced from 100 to 10 while that of Applicant A reduced from 100 to
  92 and the fiscal condition of Applicant B was worse than Applicant A.
  Therefore the formula COPS used to measure the indicator of fiscal condition
  was not accurate.

         The second inaccuracy associated with these formulas was that the
  rate of change value was sometimes unavailable because the formula
  required division by zero, which resulted in an undefined value. This flaw is
  illustrated in a numerical example in the Table 3 below.

  Table 3: Jurisdictional Balance of two Applicants in FYs 2007, 2008,
  and 2009

    Applicant       FY 2007          FY 2008             FY 2009
  Applicant A          0                0                   10
  Applicant B          0                0                1,000,000



                                        44 

       COPS’ formulas cannot be used to calculate rates of change as the
denominator in these cases was zero. To mitigate this computational
difficulty, COPS inaccurately applied protocols using the same rates of
change for all such cases with the same score. As can be seen in Table 3,
the jurisdictional balance indicator of fiscal condition of Applicant A was
much worse than that of Applicant B, as Applicant A has improved from 0 to
10 as opposed to Applicant B’s change from 0 to 1,000,000. We believe it
was inappropriate to use these protocols because they did not capture the
desired measurements accurately.




                                    45 

                                                                APPENDIX III


                  AGENCIES AFFECTED BY CHRP RESCORING

       Grantees That Would Not Have Been Funded CHRP Grants
                           (45 Recipients)


     Agency                                          Officers   Award Amount
1    Macon County Sheriff's Department, AL              1       $    114,573
2    Colorado River Indian Tribes, AZ                   1       $    150,624
3    Pittsburg Police Department, CA                    2       $    758,096
4    Willows Police Department, CA                      1       $    255,843
5    Dinuba Police Department, CA                       2       $    543,842
6    Sutter Creek Police Department, CA                 1       $    238,884
7    Clovis Police Department, CA                       5       $   1,526,465
8    West Sacramento Police Department, CA              3       $    973,356
9    Siskiyou County Sheriff's Department, CA           3       $    615,156
10   Colorado Springs Police Department, CO             2       $    418,560
11   Black Hawk Police Department, CO                   1       $    262,308
12   Hollywood Police Department, FL                    4       $   1,132,096
13   Winter Garden Police Department, FL                3       $    571,362
14   Dunnellon Police Department, FL                    1       $    144,043
15   Adairsville Police Department, GA                  1       $    156,726
16   City of Villa Rica, GA                             2       $    321,516
17   Clearwater County Sheriff's Office, ID             1       $    144,170
18   Riverdale, Village of, IL                          2       $    515,532
19   City of LaPorte, IN                                2       $    382,154
20   Edwardsville Police Department, KS                 1       $    187,574
21   City of Hyden, KY                                  1       $    108,363
22   Hopkins Police Department, MI                      1       $    111,747
23   Sugar Creek Police Department, MO                  1       $    158,847
24   Livingston Police Department, MT                   1       $    172,548
25   Richmond County Sheriff's Department, NC           3       $    383,778
26   Town of Red Springs, NC                            1       $    136,356
27   Town of Madison, NC                                1       $    137,840
28   Lincoln Police Department, NE                      4       $    679,136




                                              46 

29   Franklin Police Department, NH                    1       $   180,095
30   Wakefield Police Department, NH                   1       $   188,003
31   Reno-Sparks Indian Colony, NV                     1       $   176,254
32   Russells Point Police Department, OH              1       $   130,428
33   Newton Falls Police Department, OH                1       $   195,090
34   New Boston Police Department, OH                  1       $   154,490
35   Wilkinsburg Police Department, PA                 1       $   210,795
36   Bluffton Police Department, SC                    2       $   361,464
37   Aiken Department of Public Safety, SC             4       $   568,280
38   Town of McBee, SC                                 1       $   137,686
39   Simpsonville Police Department, SC                2       $   252,294
40   City of Martin, SD                                1       $   140,262
41   Normangee Police Department, TX                   1       $   137,816
42   Roma Police Department, TX                        1       $   114,733
43   Ceredo Police Department, WV                      1       $   126,861
44   White Hall Police Department, WV                  1       $   122,424
45   Cameron Police Department, WV                     1       $   148,797



        Grantees That Would Have Received Less CHRP Funding
                           (6 Recipients)

     Agency                                         Officers   Award Amount
1    Boise Police Department, ID                       2       $      503,270
2    Gulfport Police Department, MS                    1       $      156,257
3    Tulsa Police Department, OK                       2       $      389,494
4    Oregon City Police Department, OR                 1       $      288,299
5    Providence Police Department, RI                  1       $      271,524
6    Norfolk Police Department, VA                     1       $      164,529




                                             47 

           Agencies That Should Have Been Funded CHRP Grants
                             (34 Applicants)

                                                                              Award
     Agency                                             Officers             Amount42
 1   Petersburg Police Department, AK                        1        $        249,364
 2   Casa Grande Police Department, AZ                       4        $      1,006,404
 3   Trinity County Sheriff's Department, CA                 1        $        253,465
 4   Red Bluff Police Department, CA                         1        $        261,087
 5   Northglenn Police Department, CO                        3       $        645,339
 6   Thornton Police Department, CO                          1           $     223,669
 7   Bushnell Public Safety, FL                              1        $        158,603
 8   Hampton Police Department, GA                           1        $        146,892
 9   Athens Clarke County Police Department, GA             11        $      1,486,617
10   Meridian Police Department, ID                          4        $       725,932
11   Springfield Police Department, IL                       7        $      1,451,058
12   Harlan Police Department, KY                            1        $       128,625
13   Saugus Police Department, MA                            3        $       537,945
14   Fruitland Police Department, MD                         1        $       203,670
15   Tawas Police Authority, MI                              1        $       187,442
16   Lansing Township Police Department, MI                  1        $       225,804
17   City of Saint Clair, MO                                 1        $       163,446
18   Duck Hill Police Department, MS                         1        $       111,404
19   Cut Bank Police Department, MT                          1        $       134,865
20   Grand Island Police Department, NE                      3        $       576,528
21   Boardman Township, OH                                   2        $       524,246
22   Chillicothe Police Department, OH                       2        $       446,722
23   Del City Police Department, OK                          2        $       351,232
24   McLoud Police Department, OK                            1        $        99,937
25   Borough of West Hazleton, PA                            1        $       176,912
26   City of Groton, SD                                      1        $       142,788
27   Lenoir Police Department, TN                            1        $        212,266


      42
           This award amount is taken from information submitted by the applicant and the
actual amount to be awarded may increase or decrease based on COPS’ final review of the
applicant’s grant request.


                                           48
28   Covington Police Department, TN               2         $       353,544
29   Waller Police Department, TX                  1         $       178,572
30   San Juan Police Department, TX                2         $       282,108
31   Vidor Police Department, TX                   1         $       186,689
32   Glade Spring Police Department, VA            1         $       107,869
33   Moses Lake Police Department, WA              2         $       453,864
34   Gillett Police Department, WI                 1         $       191,329



       Grantees That Should Have Received More CHRP Funding
                           (6 Recipients)

     Agency                                       Officers   Award Amount42
1    Wichita Police Department, KS                     1         $       204,597
2    Canton Police Department, MS                      1         $       123,393
3    Concord Police Department, NH                     2         $       415,088
4    Nye County Sheriff’s Department, NV               1         $       216,539
5    Memphis Police Department, TN                  13           $     2,229,357
6    Morgantown Police Department, WV                  2         $      334,816




                                           49 

                                                          APPENDIX IV 


               AGENCIES THAT WITHDREW FROM CHRP 



     Agency
1    City of Plainview, AR
2    Delaware Department of Natural Resources and Environmental Control
3    City of Jacksonville Beach, FL
4    Lee County Sheriff's Office, FL
5    Florida Department of Law Enforcement, FL
6    Winter Haven PD, FL
7    Middle Georgia College, GA
8    Christian County Sheriff's Office, IL
9    Village of Waterman, IL
10   Menifee County Sheriff's Department, KY
11   Cheyenne and Arapahoe Tribes, OK
12   High Point, NC




                                       50 

                                                                                       APPENDIX V 





                                                                      OMB Number:
                                                                      1103-0098
                                                                      Expiration
                                                                      Date:
                                                                      09/30/2009


COPS Hiring Recovery Program (CHRP)
Application
                       COPS Application Attachment to SF-424
The COPS Hiring Recovery Program (CHRP) is a competitive grant program that provides funding
directly to law enforcement agencies having primary law enforcement authority to create and
preserve jobs and to increase their community policing capacity and crime-prevention efforts.
CHRP funding is available to hire full-time career law enforcement officers. There is no local
matching requirement, but grant funding will be based on your agency’s current entry-level salaries
and benefits for sworn officer positions. Any additional costs for higher salaries and benefits for
positions hired under the CHRP grant must be paid for by the grantee agency.

In preparing your agency’s grant application, please be advised that grantees are prohibited from
reducing state, local, or tribal funding for sworn officer positions as a direct result of applying for
and/or receiving this CHRP grant. Instead, this program is intended to supplement the amount of
state, local, or tribal funding that your agency would otherwise be able to budget for sworn officer
positions.

In addition, at the conclusion of federal funding, grantees must retain all sworn officer positions
awarded under the CHRP grant. The retained CHRP-funded positions should be added to your
agency’s law enforcement budget with state and/or local funds, over and above the number of
locally-funded sworn officer positions that would have existed in the absence of the grant.

To the extent possible, all data should come from a publicly verifiable source, and documentation
may be requested by the COPS Office. This information will be used to evaluate your jurisdiction’s
need for federal assistance to address its public safety needs and to preserve and create jobs.

SECTION 1: EXECUTIVE INFORMATION
Note: Listing individuals without ultimate programmatic and financial authority for the grant
could delay the review of your application, or remove your application from consideration.

    A. Applicant ORI Number: __ __ __ __ __ __ _

    B. Applicant DUNS Number: __ __ __ __ __ __ __ __ __ A Data Universal Numbering System
(DUNS) number is required. A DUNS number is a unique nine-digit sequence recognized as the
universal standard for identifying and keeping track of entities receiving federal funds. For more


                                                   51 

  information about how to obtain a DUNS number, please refer to the How to Apply section of the
COPS Application Guide.

    C. Central Contractor Registration (CCR) All applicants are required to maintain current
registrations in the Central Contractor Registration (CCR) database. The CCR database is the
repository for standard information about federal financial assistance applicants, recipients, and
sub-recipients. For more information about how to register with the CCR, please refer to the How to
Apply section of the COPS Application Guide. Please note that applicants must update or renew
their CCR at least once per year to maintain an active status.




                                                52 

    Does your agency have an active registration with the Central Contractor Registry? Yes No

    If no, will your agency agree to have an active registration with the Central Contractor
    Registry before any COPS grant funding is awarded? Yes No

    D. GNIS ID: __ __ __ __ __ __ __
    Please enter your Geographic Names Information System (GNIS) Identification Number. This is a
    unique ID assigned to all geographic entities by the U.S. Geological Survey. To look up your GNIS
    Feature ID, please go to the website: http://.geonames.usgs.gov/domestic/index.html. For more
    information about how to obtain a GNIS number, please refer to the How to Apply section of the
    CHRP Application Guide.


   E. Law Enforcement Executive/Program Official Information:
or equivalent).
Title:
First Name:               MI:               Last Name:                                  Suffix:
Agency Name:
Street Address
1:
Street Address
2:
City:                  State:                Zip Code:
Telephone:               Fax:
E-mail:
    For Law Enforcement Agencies: Enter the law enforcement executive’s name and contact
    information. This is the highest ranking law enforcement official within your jurisdiction (e.g., Chief
    of Police, Sheriff,

    Type of Agency:

    F. Government Executive/Financial Official Information:
    For Government Agencies: Enter the government executive’s name and contact information. This is
    the highest ranking official within your jurisdiction (e.g., Mayor, City Administrator, Tribal
    Chairman, or equivalent).

    Title: First Name: MI: Last Name:            Suffix: Agency Name: Street Address 1: Street
    Address 2: City: ____________________State: ________________Zip Code: Telephone: Fax: E-
    mail:
    Type of Government Entity:




                                                      53 

SECTION 2: GENERAL AGENCY INFORMATION

A. General Applicant Information
1. Cognizant Federal Agency: _______________________________________
Enter your jurisdiction’s Cognizant Federal Agency. A Cognizant Federal Agency, generally, is the
federal agency from which your jurisdiction receives the most federal funding. Your Cognizant
Federal Agency also may have been previously designated by the Office of Management and Budget

2. Fiscal Year: _ _/_ _ /_ _ _ _ to _ _/_ _ /_ _ _ _ (mo/day/yr)
Enter your jurisdiction’s fiscal year.
3. Jurisdictional population as of the 2000 U.S. Census:
________________

⁭ Check here if the jurisdictional population is not represented by
 U.S. Census figures (e.g., colleges, special agencies, school
 police departments, etc.). (If checked, skip Question 4 and go to
 Question 5)

4. Enter the total jurisdictional population as of the 2007 Census
Estimate.   The Census Estimate can be looked up in the American
FactFinder at http://FactFinder.census.gov.
5. If the jurisdictional population is not represented by U.S.
Census figures, please indicate the size of the population in 2007:
_________________________________

       Please indicate the source of this estimate:_____________

       (Question 5 is N/A unless the checkbox in #3 above is checked)

6. Do officers have primary law enforcement authority for this entire jurisdictional population? [An
       agency with primary law enforcement authority is defined as the first responder to calls for
       service, and has ultimate and final responsibility for the prevention, detection, and/or
       investigation of crime within its jurisdiction.]

        YES ____ NO _____
       (If yes, skip to section B below)

       a) If NO, what is the actual population for which your department has primary law
            enforcement authority? For example, your service population may be the 2007 Census
            Estimate minus the population of the incorporated towns and cities that have their own
            police departments within your geographic boundaries. ___________

B. Law Enforcement Agency Information

1. Enter the Current Fiscal Year Budgeted Sworn Force Strength:
Full-time:____________ Part-time:____________
The budgeted number of sworn officer positions is the number of sworn positions your agency has
funded within its budget, including state, Bureau of Indian Affairs, and locally-funded vacancies. Do


                                                 54 

not include unfunded vacancies or unpaid/reserve officers.

2. Enter the Actual Sworn Force Strength as of the Date of This Application:
Full-time:____________ Part-time:____________
The actual number of sworn officer positions is the actual number of sworn positions employed by
your agency as of the date of this application. Do not include funded but currently vacant positions
or unpaid positions.

SECTION 3: CHRP PROGRAM REQUEST
Your agency may apply for COPS funds to use on or after the official grant award start date to hire
new, additional officer positions (including filling existing unfunded vacancies) or rehire officers
who have already been laid off, or are currently scheduled to be laid off on a future date, as a result
of state, local or tribal budget reductions. Please base your application request on your agency’s
current anticipated needs for funding in these primary categories. Please also be mindful of the
initial three-year grant period and your agency’s ability to fill and retain the officer positions
awarded, while following your agency’s established hiring policies and procedures.

As described in detail in the CHRP Application Guide, it is imperative that applicants understand that
the COPS statute nonsupplanting requirement mandates that CHRP funds may be used only to
supplement (increase) a grantee’s law enforcement budget for sworn officer positions and may not
supplant (replace) state, local, or tribal funds that a grantee otherwise would have spent on officer
positions if it had not received a CHRP award. This means that if your agency plans to:

(a) Hire new officer positions (including filling existing officer
vacancies that are no longer funded in your agency’s budget): It
must hire these additional positions on or after the official grant
award start date, above its current budgeted (funded) level of
sworn officer positions, and otherwise comply with the
nonsupplanting requirement as described in detail in the CHRP
Application Guide and Grant Owner’s Manual;

(b) Rehire officers who have already been laid off (at the time of
application) as a result of state, local, or tribal budget cuts: It
must rehire the officers on or after the official grant award start
date, maintain documentation showing the date(s) that the positions
were laid off and rehired, and otherwise comply with the
nonsupplanting requirement as described in detail in the CHRP
Application Guide and Grant Owner’s Manual;

(c) Rehire officers who are (at the time of application) currently
scheduled to be laid off on a future date as a result of state,
local, or tribal budget cuts: It must continue to fund the officers
with its own funds from the grant award start date until the date
of the scheduled lay-off (for example, if the CHRP award start date
is September 1 and the lay-off is scheduled for November 1, then
the CHRP funds may not be used to fund the officers until November
1, the date of the scheduled layoff), identify the number and
date(s) of the scheduled lay-off(s) in this application [see
below], maintain documentation showing the date(s) and reason(s)
for the lay-off, and otherwise comply with the nonsupplanting


                                                   55 

requirement as described in detail in the CHRP Application Guide
and Grant Owner’s Manual. [Please note that as long as your agency
can document the date that the lay-off(s) would occur if the CHRP
funds were not available, it may transfer the officers to the CHRP
funding on or immediately after the date of the lay-off without
formally completing the administrative steps associated with a lay-
off for each individual officer.]

       Documentation that may be used to prove that scheduled lay-offs are occurring for local
       economic reasons that are unrelated to the availability of CHRP grant funds may include (but
       are not limited to) council or departmental meeting minutes, memoranda, notices, or orders
       discussing the lay-offs; notices provided to the individual officers regarding the date(s) of the
       layoffs; and/or budget documents ordering departmental and/or jurisdiction-wide budget cuts.
       These records must be maintained with your agency’s CHRP grant records during the grant
       period and for three years following the official closeout of the CHRP grant in the event of an
       audit, monitoring, or other evaluation of your grant compliance. The following tips are
       designed to help comply with the program and financial requirements associated with the
       administration of your grant. http://www.cops.usdoj.gov/Default.asp?Item=2116

When completing the questions below, please base your responses on your agency’s current (at the
time of application) needs for funding in the three hiring categories (new hires, rehires of previously
laid off officers, and rehiring officers who are scheduled to be laid off on a specific future date).
CHRP grant awards will be made for officer positions requested in each of these three categories and
recipients of CHRP awards are required to use awarded funds for the specific categories awarded.

During the review of your agency’s application, if the COPS Office reduces the number of positions
you requested in the application, the COPS Office may contact you to obtain a new number of
officer positions requested in each category.

How many CHRP sworn officer positions is your agency requesting (total)? _______

How many of the positions will be:

(a) To hire new, additional officer positions (including to fill
existing vacancies that are no longer funded in your agency’s
budget)? ________________________
(b) To rehire officers who have already been laid off (at the time
of application) as a result of state, local, or tribal budget
reductions? _______________________________________
(c) To rehire officers who are (at the time of application)
currently scheduled to be laid off on a specific future date as a
result of state, local, or tribal budget reductions?

                 (# Positions) _______ Date of the scheduled lay-off for these officers

          If your agency has planned multiple future lay-off
       dates, please use the additional space below:
             (# Positions) _______ Date of the scheduled lay-off for these officers




                                                  56 

                 (# Positions) _______ Date of the scheduled lay-off for these officers

       Special Reminder for Rehired Officers:

       The CHRP program awards funding based on your agency’s entry-level salary and
       benefits package. Any additional (higher than entry-level) salary and benefits
       expenses for rehired officers must be paid by your agency.

       Certification Regarding Scheduled Lay-Offs:

       If your agency plans to use CHRP funds to rehire officers who are currently scheduled to be
       laid off on a future date (under category c above), please certify (by checking the
       appropriate boxes) to the following:

        Certification:

               ⁮ My agency has and will maintain documentation showing the date(s) of the
                scheduled lay-off(s) and demonstrating that the scheduled lay-off(s) is/are
                occurring for fiscal reasons that are unrelated to the availability or receipt of CHRP
                grant funds (as described above).

               ⁮ My agency will use its own funds to continue funding these officers until the
                scheduled date(s) of the lay-off(s) and will use CHRP funds to rehire these officers
                only on or after the scheduled date of the lay-off(s).

               ⁮ My agency recognizes that the CHRP program provides funding based on our
                entry-level salary and benefits package and that any additional costs for rehired
                officers beyond entry-level are our responsibility to pay with other sources of
                funding.


If an applicant receives an award, and after receiving the awards needs to change the hiring
categories, it must request a post-award grant modification to change the categories of hiring and
receive prior approval before spending CHRP funding by calling the COPS Office Response Center
at 1-800-4216770.

The American Recovery and Reinvestment Act (Recovery Act) requires grantees to report their
financial and programmatic progress within 10 days after the end of each calendar quarter. The
Recovery Act reporting requirements are in addition to quarterly financial status report and quarterly
programmatic progress report requirements. The COPS Office plans to request information from
grantees consistent with Section 1512 of the Recovery Act, including collecting information on the
number of new jobs created and the number of jobs preserved using CHRP funding. Awarded
agencies will be required to submit information in a timely manner as a condition of the award. The
COPS Office is then required to post data from grantee reports to Recovery.gov. Please be advised
that the submission of programmatic and financial reports on a timely basis is a significant condition
of the CHRP grant and a violation of the grant requirement may result in termination of grant funding
or other remedies.




                                                  57 

In order to aid in compliance with the reporting requirements, awarded agencies should be prepared
to track and report CHRP funding separately from other funding sources (including other COPS and
federal grants) to ensure accurate financial and programmatic reporting on a timely basis. Your
agency should ensure that you have financial internal controls in place to monitor the use of CHRP
funding and ensure that its use is consistent with grant terms and conditions. Good practices in this
area would include written accounting practices, an accounting system that tracks all drawdowns and
grant expenditures, and the ability to track when each CHRP position funded is filled or vacant
(including if the position was for a new hire or a re-hire).

SECTION 4: NEED FOR FEDERAL ASSISTANCE
1) Enter your law enforcement agency’s total operating budget for the current AND previous two
fiscal years. CURRENT FISCAL YEAR (2009) $___________________ PREVIOUS FISCAL
YEAR (2008) $___________________

         PREVIOUS FISCAL YEAR (2007) $____________________ 2) Enter the total
jurisdictional (city, county, state, tribal) operating budget for the current AND previous two fiscal
years.

         CURRENT FISCAL YEAR (2009) $___________________


         PREVIOUS FISCAL YEAR (2008) $___________________


         PREVIOUS FISCAL YEAR (2007) $____________________

3) Enter the total jurisdictional (city, county, state, tribal)
locally generated revenues for the current AND previous two
fiscal years. Locally generated revenues may include locally
generated property taxes, sales taxes and other taxes and
revenue sources (for example, transportation taxes, transient
lodging taxes, licensing fees, other non-property taxes and
franchise taxes).

         CURRENT FISCAL YEAR (2009) $___________________

         PREVIOUS FISCAL YEAR (2008) $___________________

         PREVIOUS FISCAL YEAR (2007) $____________________

4) Enter the total jurisdictional (city, county, state, tribal) general fund balance for the current and
previous two fiscal years.



                                                    58 

        CURRENT FISCAL YEAR (2009) $___________________

        PREVIOUS FISCAL YEAR (2008) $___________________

        PREVIOUS FISCAL YEAR (2007) $____________________

5) Since January 1, 2008, what percentages of the following employees in your jurisdiction (city,
county, state, tribal) have been reduced through lay-offs:

        Civilian Law Enforcement Agency Personnel _____%

        Sworn Law Enforcement Agency Personnel _____%

        Other Government Agency Personnel _____%

6) Since January 1, 2008, what percentages of the following employees in your jurisdiction (city,
county, state, tribal) have been reduced through furloughs that have lasted or are scheduled to last a
minimum of forty hours over the course of a fiscal year:

        Civilian Law Enforcement Agency Personnel _____%

        Sworn Law Enforcement Agency Personnel _____%

        Other Government Agency Personnel _____%

7) Since January 1, 2008 what percentages of the following employees in your jurisdiction (city,
county, state, tribal) have been reduced due to official policies that limit your jurisdiction’s ability to
fill vacancies (i.e., hiring freezes):

        Civilian Law Enforcement Agency Personnel _____%

        Sworn Law Enforcement Agency Personnel _____%


        Other Government Agency Personnel _____%

8) The U.S. Census Bureau American Community Survey (ACS) provides multi-year poverty rate
estimates for communities. For jurisdictions with a Census population greater than 20,000, please
go to the U.S. Census Bureau’s American FactFinder (http://FactFinder.census.gov) to determine
the percent of families in poverty in your jurisdiction based on the 2005-2007 ACS. For
jurisdictions below 20,000 in population or not represented in the U.S. Census, please select the
nearest best match for your jurisdiction (for example, the county in which your jurisdiction is
located). Please see the CHRP Application Guide for additional information and help in using the
American FactFinder.

        Percent of families in poverty________%



                                                    59 

9) The Bureau of Labor Statistic’s’ Local Area Unemployment Statistics (LAUS) program provides
monthly estimates of unemployment for communities. Please go to the Bureau of Labor Statistics’
LAUS website: (www.bls.gov/lau/data.htm) to find detailed instructions for looking up your local
area’s unemployment rate. As with the previous question, it may be necessary to select the nearest
best match to your jurisdiction (for example, a city of fewer than 25,000 people may report their
county level rate). Please see the CHRP Application Guide for additional information and help in
using the LAUS data.

       Percentage unemployed for January 2009 _____%

       Percentage unemployed for January 2008 ______ %

10) Indicate your jurisdiction’s estimated residential property foreclosure rate for calendar year
2008. This rate should be calculated as the total number of new default and auction foreclosure
filings and new bank-owned foreclosures (REOs) in 2008 divided by the total number of residential
households.

       ______%

       ______ Check here if the information necessary to calculate this rate is unavailable.

11) Indicate if your jurisdiction has experienced any of the following events since January 1, 2008:

_____Military base closure or realignment.

_____A declaration of natural or other major disaster or emergency has been made pursuant to the
Robert
T. Stafford Disaster Relief and Emergency Assistance Act. (42 U.S.C. 5121 et seq.)

_____A declaration as an economically or financially distressed area by the state in which the
applicant is located.




                                                 60 

_____Downgrading of the applicant’s bond rating by a major rating agency. _____Has filed for or

been declared bankrupt by a court of law. _____Has been placed in receivership or its functional

equivalent by the state or federal government.

System Note: They can select multiple items above.

12) Indicate if, since January 1, 2008, your jurisdiction has experienced an unplanned, non-
recurring, capital outlay or unanticipated loss of revenue that has had a significant negative impact
on your jurisdiction’s fiscal health.


        Yes____ No____

        12a) If YES, please express the cost of this event as a percentage of your total current
        operating budget ______% and please describe the event (please limit to 350 characters):




13) Using UCR crime definitions enter the actual number of incidents reported to your
jurisdiction in calendar year 2008 for the following crime types:

        Criminal Homicide: ______________ Forcible Rape: ______________ Robbery:
        ______________ Aggravated Assault: ______________ Burglary: ______________
        Larceny (except motor vehicle theft): ______________ Motor Vehicle Theft:
        ______________

*Note: If your agency currently reports to NIBRS, or does not report crime incident totals at all,
please ensure that your data is converted to UCR Summary Data style. Please see the CHRP
Application Guide or the FBI’s UCR Handbook (www.fbi.gov/ucr/handbook/ucrhandbook04.pdf) for
more information.




                                                  61 

SECTION 5: LAW ENFORCEMENT & 

COMMUNITY POLICING STRATEGY 

Proposed Community Policing Plan
COPS grants must be used to initiate or enhance community policing activities. Please complete
the following questions to describe the types of community policing activities that will result from
CHRP funding. You may find more detailed information about community policing at the COPS
Office web site http://www.cops.usdoj.gov/Default.asp?Item=36.

Community Partnerships
Community partnerships are on-going collaborative relationships between the law enforcement
agency and the individuals and organizations they serve to both develop solutions to problems and
increase trust in the police.

My agency:

P1) Regularly distributes relevant crime and disorder information to community members. a) does
       not currently do, and has no plans to implement under this grant b) does not currently do, and
       plans to initiate under this grant c) currently does, and plans to continue doing under this
       grant d) currently does, and plans to expand/enhance under this grant

P2) Routinely seeks input from the community to identify and prioritize neighborhood problems
       (e.g., through regularly scheduled community meetings, annual community surveys, etc.). a)
       does not currently do, and has no plans to implement under this grant b) does not currently
       do, and plans to initiate under this grant c) currently does, and plans to continue doing under
       this grant d) currently does, and plans to expand/enhance under this grant

P3) Regularly collaborates with other local government agencies that deliver public services. a) does
       not currently do, and has no plans to implement under this grant b) does not currently do, and
       plans to initiate under this grant c) currently does, and plans to continue doing under this
       grant d) currently does, and plans to expand/enhance under this grant

P4) Regularly collaborates with non-profit organizations and/or community groups. a) does not
       currently do, and has no plans to implement under this grant b) does not currently do, and
       plans to initiate under this grant c) currently does, and plans to continue doing under this
       grant d) currently does, and plans to expand/enhance under this grant

P5) Regularly collaborates with local businesses. a) does not currently do, and has no plans to
       implement under this grant b) does not currently do, and plans to initiate under this grant c)
       currently does, and plans to continue doing under this grant d) currently does, and plans to
       expand/enhance under this grant




P6) Regularly collaborates with informal neighborhood groups and resident associations. a) does not


                                                  62 

        currently do, and has no plans to implement under this grant b) does not currently do, and
        plans to initiate under this grant c) currently does, and plans to continue doing under this
        grant d) currently does, and plans to expand/enhance under this grant

Problem Solving
Problem solving is an analytical process for systematically 1) identifying and prioritizing problems,
2) analyzing problems, 3) responding to problems, and 4) evaluating problem solving initiatives.
Problem solving involves an agency-wide commitment to go beyond traditional police responses to
crime to proactively address a multitude of problems that adversely affect quality of life.

My agency:

PS1) Routinely incorporates problem-solving principles into patrol work.
      a) does not currently do, and has no plans to implement under this
      grant b) does not currently do, and plans to initiate under this grant
      c) currently does, and plans to continue doing under this grant d)
      currently does, and plans to expand/enhance under this grant

PS2) Identifies and prioritizes crime and disorder problems through the
      routine examination of patterns and trends involving repeat victims,
      offenders, and locations. a) does not currently do, and has no plans
      to implement under this grant b) does not currently do, and plans to
      initiate under this grant c) currently does, and plans to continue
      doing under this grant d) currently does, and plans to
      expand/enhance under this grant

PS3) Routinely explores the underlying factors and conditions that contribute to crime and disorder
       problems. a) does not currently do, and has no plans to implement under this grant b) does
       not currently do, and plans to initiate under this grant c) currently does, and plans to continue
       doing under this grant d) currently does, and plans to expand/enhance under this grant

PS4) Systematically tailors responses to crime and disorder problems to address their underlying
       conditions. a) does not currently do, and has no plans to implement under this grant b) does
       not currently do, and plans to initiate under this grant c) currently does, and plans to continue
       doing under this grant d) currently does, and plans to expand/enhance under this grant

PS5) Regularly conducts assessments to determine the effectiveness of responses to crime and
disorder problems. a) does not currently do, and has no plans to implement under this grant b) does
not currently do, and plans to initiate under this grant c) currently does, and plans to continue doing
under this grant d) currently does, and plans to expand/enhance under this grant


Organizational Transformation
Organizational transformation is the alignment of organizational management, structure, personnel
and information systems to support community partnerships and proactive problem-solving efforts.




                                                  63 

My agency:

OC1) Incorporates community policing principles into the agency’s mission statement and strategic
plan.
       a) does not currently do, and has no plans to implement under this grant
       b) does not currently do, and plans to initiate under this grant
       c) currently does, and plans to continue doing under this grant
       d) currently does, and plans to expand/enhance under this grant

OC2) Practices community policing as an agency-wide effort involving all staff (i.e. not solely
housed in
a specialized unit).
        a) does not currently do, and has no plans to implement under this grant
        b) does not currently do, and plans to initiate under this grant
        c) currently does, and plans to continue doing under this grant
        d) currently does, and plans to expand/enhance under this grant

OC3) Incorporates problem-solving and partnership activities into personnel performance
evaluations.
        a) does not currently do, and has no plans to implement under this grant
        b) does not currently do, and plans to initiate under this grant
        c) currently does, and plans to continue doing under this grant
        d) currently does, and plans to expand/enhance under this grant

Community Policing Plan Narrative (please limit to 2,000
characters)


Please describe your agency’s implementation plan for this program (if awarded), with specific
reference to each of the following elements of community policing: (a) community partnerships and
support, including consultation with community groups, private agencies, and/or other public
agencies; (b) related governmental and community initiatives that complement your agency’s
proposed use of CHRP funding; and (c) organizational transformation – how your agency will use
these funds, if awarded, to reorient its mission to community policing or enhance its involvement in
and commitment to community policing. This narrative will not be scored for selection purposes but
serves, along with the previous questions, as your agency’s community policing plan. Your
organization may be audited or monitored to ensure that it is initiating or enhancing community
policing in accordance with this plan. The COPS Office may also use this information to understand
the needs of the field, and potentially provide for training, technical assistance, problem solving and
community policing implementation tools.

If your organization receives this CHRP grant funding, these responses will be considered as your
organization’s community policing plan. We understand that your community policing needs may
change during the life of your CHRP grant (if awarded), and minor changes to this plan may be
made without prior approval of the COPS Office. We also recognize that this plan may incorporate
a broad range of possible community policing strategies and activities, and that your agency may
implement particular community policing strategies from the plan on an as-needed basis throughout
the life of the grant. If your agency’s community policing plan changes significantly, however, you
must submit those changes in writing to the COPS Office for approval. Changes are “significant” if


                                                 64 

they deviate from the range of possible community policing activities identified and approved in this
original community policing plan submitted with your application.

CP1) To what extent is there community support in your jurisdiction for implementing the proposed
grant activities? a) Minimal support b) Moderate support c) High level of support

CP2) If awarded, to what extent will the grant activities impact the other components of the criminal
justice system in your jurisdiction? a) Potentially increased burden b) No change in burden c)
Potentially decreased burden


SECTION 6: CONTINUATION OF PROJECT
AFTER FEDERAL FUNDING ENDS
Applicants must plan to retain all sworn officer positions awarded under the CHRP grant for a
minimum of 12 months at the conclusion of 36 months of federal funding for each position. The
retained CHRP-funded positions should be added to your agency’s law enforcement budget with
state and/or local funds at the end of grant funding, over and above the number of locally-funded
sworn officer positions that would have existed in the absence of the grant. At the time of grant
application, applicants must affirm that they plan to retain the positions and identify the planned
source(s) of retention funding. We understand that your agency’s source(s) of retention funding may
change during the life of the grant. Your agency should maintain proper documentation of any
changes in the event of an audit, monitoring

or other evaluation of your grant compliance. Please refer to the frequently asked questions on
retention which can be found here http://www.cops.usdoj.gov/Default.asp?Item=2115.


Has your agency planned to retain all additional sworn officer positions under this grant for a
minimum of 12 months at the conclusion of 36 months of federal funding for each position? YES
___ NO___
(If YES, move on to next question) (If NO,: "Agencies that do not plan to retain all the positions
awarded under this grant are ineligible to receive CHRP funding”)

Please identify the source(s) of funding that your agency plans to utilize to cover the costs of
retention from the drop-down box listed below:

-General funds -Raise bond/tax issue -Asset forfeiture funds -Private sources/donations -Fundraising
efforts -Other (Please provide a brief description of the source(s) of funding not to exceed 75 words.)




                                                  65 

                                                                              APPENDIX VI

        THE OFFICE OF COMMUNITY ORIENTED POLICING SERVICES’
                    RESPONSE TO THE DRAFT REPORT




                                                                   U.S. Department of Justice
                                            Office of Community Oriented Policing Services (COPS)




                                      MEMORANDUM

VIA ELECTRONIC and U.S. MAIL



To: 	      Raymond J. Beaudet
           Assistant Inspector General for Audit
           Office of the Inspector General

From:       Bernard K. Melekian 

            Director

            Office of Community Oriented Policing Services (COPS)

Date: 	     May 7, 2010

Subject: 	 Draft Audit Report on the Selection Process for the COPS Hiring Recovery Program

This memorandum is in response to the Office of the Inspector General’s (OIG) above-
referenced draft audit report dated April 23, 2010. The COPS Office thanks the OIG for the
opportunity to respond to the auditors’ recommendations.

As stated in the report, on February 17, 2009, President Obama signed into law the American
Recovery and Reinvestment Act (Recovery Act) of 2009, P.L. 111-5. This act provided $1
billion to the Department of Justice Office of Community Oriented Policing Services (COPS) to
make grants directly to state, local, and tribal law enforcement agencies to hire and/or rehire
career law enforcement officers in an effort to create and preserve jobs and increase their
community policing capacity and crime prevention efforts.

On July 28, 2009, just five months later, the COPS Office made 1,046 awards to hire or rehire
4,699 law enforcement officer positions. Within those five months, COPS:


                                              66 

   	 Developed a new open competitive solicitation – the COPS Hiring Recovery Program
      (CHRP) – for all local, state, and federally recognized tribal law enforcement agencies,
      which fully incorporated the new requirements of the Recovery Act.
   	 Built a new on-line application system which not only provided the COPS Office with
      real-time data, but also allowed COPS to make up-to-the-minute reports available to
      interested parties within the Department of Justice.
   	 Received and responded to an unprecedented number of inquiries – 17,626 telephone
      calls, 489 voicemail messages, and 4,300 e-mail messages – from the public.
   	 Received, processed, data cleaned, and evaluated applications from 7,272 law
      enforcement agencies requesting more than 39,000 officer positions, full funding of
      which would have required $8.3 billion.
   	 Contacted more than 1,700 agencies to validate their data, and in total reviewed over
      275,000 individual data points. This data verification process, though time consuming,
      was crucial to ensuring that all applicants were properly evaluated based on accurate and
      reliable economic, crime, and community policing data.

The new application for CHRP funds was created to meet the requirements of the statutory
mission of the Office – to advance the practice of community policing as an effective strategy in
communities’ efforts to improve public safety – as well as the clear intent of the Recovery Act.
The Act required that CHRP funds be allocated:

      To preserve and create jobs and promote economic recovery; 

      To assist those most impacted by the recession; and 

      To stabilize state and local government budgets, in order to minimize and avoid 

       reductions in essential services and counterproductive state and local tax increases.

In an effort to respond to these Recovery Act goals, the COPS Office consulted with experts in
the fields of policing, criminology, and public finance to develop the appropriate questions.
Applicants were asked to submit information on such factors as reported crimes for the previous
calendar year; planned community policing activities; changes in budgets for law enforcement
agencies and local governments; and poverty, unemployment and foreclosure rates. In asking a
variety of fiscal health questions, the COPS Office was able to gain a complete a view of the
fiscal distress being experienced by applicants through objective and verifiable indicators that all
agencies, from rural communities to large cities, could accurately report.

After applications were received and the initial data was verified, COPS moved quickly to the
next phase of the review process, which included in-depth budget request reviews and evaluation
of other aspects of the applications. Finally, in preparing a CHRP award list, COPS reviewed the
total number of sworn positions being requested by each agency to determine how best to
allocate the funds available.

COPS developed a method to score each response and an algorithm that combined those scores
in a way to reflect the purposes of the Recovery Act. In this calculation, fiscal health factors
accounted for 50% of the total score, while the other 50% of the score was based on a
combination of the reported crime information and the planned community policing activities. In
this way, COPS was able to fairly evaluate each applicant, striking an appropriate balance



                                                67 

between the purpose of the Recovery Act and the underlying COPS statute and historical mission
of the Office.

The COPS Office instituted two different limitations on the numbers of officers available to
applicants that took into account the strong demand for CHRP funds, while also keeping the
awards at a meaningful level:

      All agencies were capped at no more than 5% of their current actual sworn force strength
      No agency received funding for more than 50 officers

The COPS Office concluded that these restrictions would allow funds to be awarded to a greater
number of law enforcement agencies than simply giving the first-ranked applicants their full
officer request, regardless of the size of that request. Without these caps, a very small number of
agencies would have consumed all of the available funding. With them, almost all funded
agencies received a 5% boost in their staffing levels.

We agree with the OIG’s determination that there were minor technical inaccuracies with some
of the formulas COPS used in our application scoring methodology, which impacted 40 agencies
that either should have received grants but did not or received fewer officers than they should
have, representing only 3.82% of all 1,046 CHRP award recipients (and less than 1.7% of total
CHRP funding). As noted by the OIG in the draft audit report, COPS has already developed a
reasonable and acceptable remedy to this anomaly, which will ensure that those agencies that did
not receive the full amount of CHRP funding in FY 2009 will be provided such funding through
the 2010 COPS Hiring Program (CHP). The COPS Office has notified the 40 affected agencies
of the remedial action and their pending FY 2010 awards.

The extremely high demand for funding, the development of our new on-line application system,
and the dramatically compressed timeline to award COPS Hiring Recovery Program grants
presented challenges not previously experienced with past COPS hiring programs. Yet, the
COPS Office was able to evaluate, score, and award $1 billion in Recovery Act funds in just
over five months. We are pleased that the OIG has determined, as stated within the draft audit
report, that COPS administered this program “in a timely, transparent, and merit-based manner.”

For ease of review, the draft audit recommendations are stated in bold and underlined, followed
by the COPS Office’s response to each recommendation.

Recommendation 1: Implement a remedy for agencies that were negatively affected by the
inaccurate formulas used in developing the scores and ranks of CHRP applicants.

The COPS Office concurs with this recommendation.

In addition to a host of other information, applicants seeking funding from the CHRP program
were asked to provide data for three years on the applicant’s agency budget, jurisdictional
budget, jurisdictional revenue, and jurisdictional general fund balance. These questions were
scored using a formula for measuring the change over time that the OIG identified as inaccurate.
After this issue was identified, the COPS Office proactively determined the scope of the
inaccuracy, developed an appropriate improvement to the formula for future use, and identified
the agencies negatively affected, all of which are discussed in detail in the draft audit report.


                                                68 

The COPS Office will be remedying the 40 agencies identified in Appendix III using available
funding, including FY 2010 COPS Hiring Program funding. 34 of these agencies would have
received CHRP funding, and 6 of these agencies would have received more CHRP funding
(additional officer positions), if the new formula had been used. The COPS Office has notified
the 40 affected agencies of the remedial action and their pending FY 2010 awards. Prior to
awarding this funding, the COPS Office will verify that these agencies are in compliance with all
other grant conditions and will obtain updated budget data from each agency, as it is necessary to
have current and validated salary information in order to determine accurate award amounts.
Consequently, the dollar amounts listed in the report appendix may change in order to ensure that
the correct number of full-time officer positions is awarded for each agency. As noted on page
24 of the draft audit report, the OIG has agreed that this is a reasonable approach.


Recommendation 2: Replace the outlier queries for future grant programs to better
identify potentially inaccurate data submitted by grant applicants.

The COPS Office concurs with the need to replace the outlier queries used to assess the crime
data submitted by applicants.

As discussed in the draft audit report, the crime data reported by agencies in CHRP applications
was scanned for outliers by using baseline numbers for large and small applicants. The COPS
Office recognized at the time that rates (based on population size) would have been a preferred
method for querying outliers. However, due to the complexity of the necessary queries, the
decision was made to use the baseline numbers method. Starting with FY 2010, revisions to the
COPS Standard Application and improvements to the query process will allow the COPS Office
to more accurately identify outliers based on rates.

On page 27 of the report, the OIG interprets from the COPS Office’s evaluation of the crime data
that 12 agencies had (or potentially had) errors in only one or two crime categories, each of
which was potentially worth a 5% change in the total score, and which the COPS Office
described as “minimal.” The OIG goes on to state that “…we do not agree with COPS’
conclusion that 5 to 10 percent changes should routinely be considered minimal.” The COPS
Office concurs that a 5 to 10 percent change should not routinely be considered minimal, and
never claimed it as such. It should be noted that the description of “minimal” impact for those
12 agencies in the COPS Office evaluation of the crime data was only in comparison to the eight
agencies that had “significant” impacts due to errors (or potential errors) in all seven crime
categories.


Recommendation 3: Develop and implement a system to track significant changes made
during the application process to applicant information.

The COPS Office concurs that an improved process should be implemented to track significant
changes made to applicant data.

It should be noted that the COPS Office did use a system to track significant changes made
during the CHRP application process. As the OIG stated on page 29 of the draft audit report,


                                               69 

based on its sample of 30 changes made to the CHRP applicant database, all 30 were “justified
and correct.” However, the COPS Office continually seeks ways to improve our data
management processes, including the tracking of changes to the data.

For FY 2010, the COPS Office intends to implement enhancements for the COPS Hiring
Program to improve the tracking of significant changes made during the data cleaning process.
The COPS Office will move to a time-sensitive, applicant-driven data cleaning process, which
will place the responsibility on applicants – not COPS staff – to change their own data within the
time allotted, and which will minimize the administrative challenges and potential for error
associated with having dozens of COPS staff changing, tracking, and verifying data.


Recommendation 4: Work with OJP to avoid duplication of future funding.

The COPS Office concurs that COPS and the Office of Justice Programs (OJP) should continue
to work together closely to avoid duplication of future funding.

As previously documented for the OIG, COPS coordinated closely with OJP during the
development and implementation of the CHRP program, and the then-Acting Director of the
COPS Office briefed both the Acting Assistant Attorney General for OJP and the Acting
Director of the Bureau of Justice Assistance (BJA) regarding our program objectives, funding
methodology, and rollout plans. The COPS Office also provided BJA with a list of the agencies
to be funded under CHRP, so that BJA would be aware of any agencies receiving funding
through both programs. [The receipt of grants through one award program did not prohibit
applicants from receiving other Recovery Act funds, as long as agencies were aware that
grantees may not use COPS funding for the identical item or service also funded by an OJP
award.]

As stated in the draft audit, continued collaboration between DOJ grant-making components
could improve grant management and result in more informed award decisions. It should be
noted that in each fiscal year, COPS and OJP work together in a number of ways regarding each
agency’s program objectives and funding decisions. For example, each year COPS and OJP
coordinate efforts to review their respective lists of Congressional “earmarks” appropriated for
administration and to determine which component would be the most appropriate to administer
each project. As another example, with regard to the COPS Child Sexual Predator Program,
COPS has participated in meetings (led by DOJ’s Sex Offender Sentencing, Monitoring,
Apprehending, Registering and Tracking (SMART) Office) with several other DOJ components
so that each program could discuss their work, objectives, and respective funding programs in
this area. Furthermore, all DOJ grant-making components providing funding to tribal agencies
are collaborating extensively in FY 2010 through the joint Consolidated Tribal Assistance
Solicitation (CTAS). [Through CTAS, DOJ is combining existing tribal government-specific
competitive solicitations into one solicitation, thus requiring only one application from each tribe
or tribal consortium.]

Another example of collaboration related to grant management is the establishment of the DOJ-
wide Grants Management Challenges Workgroup. This workgroup, created in February 2010, is
an interagency initiative established by the Office of the Associate Attorney General. Led by the
Deputy Associate Attorney General and consisting of representatives from COPS, OJP, and the


                                                70 

Office on Violence Against Women (OVW), the workgroup meets bi-weekly to share
information and develop consistent practices and procedures in a wide variety of grant
administration and management areas, including monitoring guidelines, high-risk grantee
criteria, and the expeditious handling of OIG grantee audits. Concerns regarding the duplication
of future funding will similarly be addressed by the workgroup as the need arises.

Based on the above management action, the COPS Office requests closure of Recommendation
4.


Recommendation 5: Provide OJP additional access to grant management documentation,
such as through direct access of CMS.

The COPS Office concurs that OJP should have timely access to COPS grant management
documentation for appropriate monitoring purposes.

It should be noted that OJP had not raised the issue of having access to the COPS Management
System (CMS) database prior to 2009, when the legacy financial systems were taken offline and
Office of the Chief Financial Officer (OCFO) staff no longer had access to basic CMS data that
they used for financial monitoring site visits and other types of financial compliance reviews.
Since 2009, OJP has made requests for CMS data on specific pools of COPS applicants, and the
data has been delivered by COPS as quickly as possible.

The majority of CMS is not web-based, meaning that it cannot be accessed outside the COPS
Office building except by COPS users, who are able to access CMS via the Justice Secure
Remote Access (JSRA) system. However, COPS understands OJP’s need for access to what the
OIG describes as direct and instant information. Given that, the COPS Office proposes the
following solution:

   	 If OJP has a standing request for one standard and consistent set of data elements, COPS
      IT staff can build a customized, real-time report of the data requested and make the report
      available online so that OJP users can log in through the COPS website and access it
      whenever they choose. [A user name and account would be established for OJP in the
      “Account Access” feature of the COPS website, similar to the method used by grantees in
      accessing their grant award information online.] As an example, if OCFO develops a list
      of 20 data elements needed for each grantee agency for their site visits, COPS IT could
      create that standing report. When OCFO users logged in, they could enter the grant
      numbers for which they need data, and a report would be generated. [Please note,
      however, that the data elements would need to remain consistent for this system to work
      effectively, as time constraints on COPS IT staff prevent the ability to create an on-
      demand query system that is also available online.]
   	 As an additional advantage, providing established reports with data elements agreed upon
      in advance reduces the chance of OJP users unfamiliar with CMS attempting to run ad
      hoc queries and possibly misinterpreting the data results.
   	 There are several current grant management functions that COPS maintains online that
      both feed and read from the CMS database schema. These functions include both hiring
      and non-hiring progress reports; SF-425 quarterly financial status reports; current contact
      information for law enforcement and government executives; 2009 CHRP applications,


                                              71 

       and (after September 30, 2010) all other COPS grant applications. COPS IT can create
       user accounts for these modules and allow OJP staff to review these reports and systems
       on a read-only basis.

The COPS Office will work with OJP to determine if the proposed solution will meet their needs
for the type of information they wish to access, and if so, will work to implement this solution
following the conclusion of FY 2010.


Recommendation 6: Consult with OJP to develop a consistent methodology for identifying
and managing high-risk grant applicants and awardees.

The COPS Office concurs with this recommendation.

As stated previously in our response to Recommendation 4, the DOJ-wide Grants Management
Challenges Workgroup is a newly-created (February 2010) interagency initiative established by
the Office of the Associate Attorney General. This group, led by the Deputy Associate Attorney
General and consisting of representatives from COPS, OJP, and OVW, meets bi-weekly to share
information and develop consistent practices and procedures in a wide variety of grant
administration and management areas, including monitoring guidelines, high-risk grantee
criteria, and the expeditious handling of OIG grantee audits.

The workgroup has already spent extensive time developing a common definition of “high-risk”
and examining the criteria used to classify a grantee agency as such; formulating procedures and
protocols for maintaining and tracking a shared list of high-risk grantees (the combined high-risk
list will be managed by OJP’s Office of Audit, Assessment, and Management); and creating
and/or revising high-risk referral templates, notification letters, policy documents, special
conditions for future awards, and other materials that will be used consistently by COPS, OJP,
and OVW. This methodology is currently in the finalization process, and should be complete by
July 2010.


Recommendation 7: Encourage CHRP grantees to participate in grant management
training and consider evaluating grantees’ understanding of the material through testing.

The COPS Office concurs with this recommendation, and agrees with the OIG’s statement on
page 37 of the draft audit report that the introduction of our online grant management training
represents a significant improvement to our grantee training capability. The online training is a
new, state-of-the-art, interactive course specialized for CHRP grantees and American Recovery
and Reinvestment Act requirements, and among other features, it incorporates user testing as part
of the training. To date, 447 of the 1,046 CHRP grantee agencies have registered for the eLearn
Center course.

To continue to encourage additional CHRP grantees to participate in this training, the following
actions are planned:

   	 The COPS Office will add information about the online grant management training to the
      progress report notification letter sent to all CHRP grantees each quarter.


                                               72 

    	 COPS had already planned to make courtesy outreach phone calls to all CHRP grantees
       by the end of July 2010 to determine if any agencies need or desire additional technical
       assistance with the implementation of their grants. As part of those calls, grantees will be
       encouraged to participate in the online grant management training.
    	 The COPS Grant Monitoring Division, in connection with site visits and other
       compliance reviews of CHRP grantees, will remind agencies of the available training
       opportunity.
    	 COPS will continue to promote the training through our website and through other
       routine correspondence with CHRP grantees, and will monitor participation levels to
       determine what additional outreach efforts may be needed.

Based on the above management action, the COPS Office requests closure of Recommendation
7.


The COPS Office thanks the Office of the Inspector General for the opportunity to review and
respond to this draft audit. If you have any questions, please contact Bob Phillips, Deputy
Director for Operations, at (202) 616-2876; Cynthia Bowie, Assistant Director, Audit Liaison
Division, at (202) 616-3645; or Martha Viterito, Program Audit Liaison, at (202) 514-6244.


cc: 	   Karol V. Mason
        Deputy Associate Attorney General

        Helaine Greenfield

        Deputy Associate Attorney General 



        Richard P. Theis

        Assistant Director, Audit Liaison Group, Justice Management Division 


        Thomas O. Puerzer       

        Regional Audit Manager, OIG Philadelphia Regional Audit Office 


        Marcia L. Wallace 

        Director, Office of Operations, OIG Audit Division 


        Robert A. Phillips 

        Deputy Director for Operations, COPS Office 





                                                73 

                                                              APPENDIX VII

       OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
     SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Office of
Community Oriented Policing Services (COPS). The COPS response is
incorporated in Appendix VI of this final report. The following provides the
OIG analysis of the response and summary of actions necessary to close the
report.

Analysis of COPS’ Response

       In response to our audit report, COPS concurred with our
recommendations and discussed the actions it will implement in response to
our findings. However, COPS also responded to information in our report
that did not pertain to our recommendations. We provide the following reply
to these statements before discussing COPS’ specific responses to each of
our recommendations and the actions necessary to close those
recommendations.

      In its response, COPS noted its agreement with our determination that
there were inaccuracies with some of the formulas COPS used in the
application scoring methodology. However, contrary to COPS’ response, we
do not state in our report, nor do we believe, that the inaccuracies were
minor. First, when the rescoring and re-ranking of the applicants was
performed, almost every applicant score (7,201 of the 7,203 rescored) was
affected (either by an increase or decrease) due to the revised formulas.
Second, by not accurately ranking agencies, the inaccuracies resulted in 34
agencies that did not receive grants and 6 agencies that did not receive all
of the officer positions that they should have received.

Summary of Actions Necessary to Close Report

  1. Resolved. COPS concurred with our recommendation to implement a
     remedy for agencies that were negatively affected by the inaccurate
     formulas used in developing the scores and ranks of CHRP applicants.
     COPS plans to ensure those agencies, if deemed eligible, will be
     provided grants from its FY 2010 Hiring Program. This
     recommendation can be closed when we receive documentation
     demonstrating that those negatively affected agencies received
     appropriate amounts of grant funds.

  2. Resolved. COPS concurred with our recommendation to replace
     outlier queries to better identify potentially inaccurate data submitted


                                     74 

   by grant applicants. COPS said that revisions to the COPS Standard
   Application and improvements to the query process will allow COPS to
   more accurately identify outliers based on crime rates. This
   recommendation can be closed when we receive documentation
   demonstrating that these changes have been implemented.

   In addition, in responding to Recommendation 2, COPS stated that the
   OIG draft report misstated COPS’ position regarding the effect of
   potential errors in one or two crime categories reported by agencies.
   Specifically, COPS stated that it concurs with the OIG that a 5 to 10
   percent change in a total score caused by errors in reported crime data
   should not be considered minimal. COPS stated that its description of
   minimal impact for those 12 agencies in the COPS Office evaluation of
   the crime data was only in comparison to the eight agencies that have
   “significant” impacts due to errors (or potential errors) in all seven
   categories. We adjusted one statement in the final report to clarify
   that COPS believes that a 5 to 10 percent change in an applicants’
   total score should not be considered minimal.

3. Resolved. COPS concurred with our recommendation to develop and
   implement a system to track significant changes made during the
   application process to applicant information. COPS said it plans to
   improve its data management procedures and implement an applicant-
   driven data-cleaning process that is designed to minimize the need for
   COPS staff to change data provided by applicants. This
   recommendation can be closed when we receive documentation
   regarding the improved data management and data-cleaning
   processes COPS implements.

4. Resolved. COPS concurred with our recommendation to work with
   OJP to avoid duplication of future grant funding. COPS included in its
   response that, as noted in our report, it had coordinated with OJP
   during the development and implementation of the CHRP program,
   and that it would continue to work with OJP and the other DOJ grant-
   making components. COPs also included examples of its current and
   planned coordination efforts, particularly for “earmark” appropriations,
   the COPS Child Sexual Predator Program, and tribal assistance
   programs. While we agree that COPS has taken some steps to
   coordinate with OJP during the development and implementation of
   the CHRP program, we believe that additional coordination is needed
   regarding the ongoing monitoring of CHRP grantees and the
   implementation of programs outside of COPS that may impact CHRP
   grant recipients. Because CHRP is a 3-year program, COPS and OJP
   should also consider the potential for duplication of any new grant


                                   75 

  programs that provide for officer personnel costs through at least
  FY 2012.

  This recommendation can be closed when we receive documentation
  regarding the ongoing activities of the DOJ-wide Grant Management
  Challenges Workgroup that demonstrates COPS, OJP, and the other
  DOJ grant-making components are managing their respective grant
  programs to avoid duplication in future funding.

5. Resolved. COPS concurred with our recommendation to provide OJP
   with additional access to grant management documentation. COPS
   said it plans to provide OJP with more access to COPS Management
   System (CMS) data. This recommendation can be closed when we
   receive documentation demonstrating the implementation of these
   plans.

6. Resolved. COPS concurred with our recommendation to consult with
   OJP to develop a consistent methodology for identifying and managing
   high-risk grant applicants and awardees. COPS cited its participation
   in the newly created DOJ-wide Grants Management Challenges
   Workshop as a means to address a variety of grant administration and
   management areas, including high-risk grant applicants and
   awardees. This recommendation can be closed when we receive
   documentation demonstrating the methodology shared by COPS and
   OJP for identifying and managing high-risk grant applicants and
   awardees has been implemented.

7. Resolved. COPS concurred with our recommendation to encourage
   CHRP grantees to participate in grant management training and
   consider evaluating grantees’ understanding of the material through
   testing. COPS said it will take a variety of actions to encourage
   grantees to participate in grant management training. This
   recommendation can be closed when we receive documentation
   detailing the number of grantees that have registered for COPS eLearn
   Center courses, course materials provided, and testing methodologies
   considered or implemented.




                                 76 

